<html>
<title> - [H.A.S.C. No. 116-37]</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-37]
_______________________________________________________________________

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                      DEPARTMENT OF THE AIR FORCE

                     ACQUISITION AND MODERNIZATION

                    PROGRAMS IN THE FISCAL YEAR 2020

       NATIONAL DEFENSE AUTHORIZATION PRESIDENT'S BUDGET REQUEST

                               __________

                              HEARING HELD
                              MAY 2, 2019
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-513                WASHINGTON : 2020 
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 DONALD NORCROSS, New Jersey, Chairman

JAMES R. LANGEVIN, Rhode Island      VICKY HARTZLER, Missouri
JOE COURTNEY, Connecticut            PAUL COOK, California
RUBEN GALLEGO, Arizona               MATT GAETZ, Florida
SALUD O. CARBAJAL, California        DON BACON, Nebraska
ANTHONY G. BROWN, Maryland           JIM BANKS, Indiana
FILEMON VELA, Texas                  PAUL MITCHELL, Michigan
XOCHITL TORRES SMALL, New Mexico,    MICHAEL R. TURNER, Ohio
    Vice Chair                       DOUG LAMBORN, Colorado
MIKIE SHERRILL, New Jersey           ROBERT J. WITTMAN, Virginia
KATIE HILL, California
JARED F. GOLDEN, Maine
                 Heath Bope, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                         Caroline Kehrli, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Norcross, Hon. Donald, a Representative from New Jersey, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1

                               WITNESSES

Behler, Hon. Robert F., Director, Operational Test and 
  Evaluation, Department of Defense..............................     9
Daigle, Hon. Robert B., Director, Cost Analysis and Program 
  Evaluation, Department of Defense..............................     7
Holmes, Gen James M., USAF, Commander, Air Combat Command, and 
  Maj Gen David S. Nahom, USAF, Director of Programs, Office of 
  the Deputy Chief of Staff for Strategic Plans and Requirements, 
  Headquarters U.S. Air Force....................................     6
Ierardi, LTG Anthony R., USA, Director, Force Structure, 
  Resources, and Assessment (J8), Joint Staff....................     7
Roper, Hon. William B., Assistant Secretary of the Air Force for 
  Acquisition, Department of the Air Force.......................     5
Sullivan, Michael J., Director, Defense Weapon System 
  Acquisitions, Government Accountability Office.................     8
Winter, VADM Mathias W., USN, Director, F-35 Joint Strike Fighter 
  Program Office, Department of Defense..........................    10

                                APPENDIX

Prepared Statements:

    Behler, Hon. Robert F........................................   117
    Daigle, Hon. Robert B........................................    86
    Ierardi, LTG Anthony R.......................................    91
    Norcross, Hon. Donald........................................    45
    Roper, Hon. William B., joint with Gen James M. Holmes and 
      Maj Gen David S. Nahom.....................................    48
    Sullivan, Michael J..........................................    95
    Winter, VADM Mathias W.......................................   135

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Carbajal.................................................   161
    Mr. Gallego..................................................   161

Questions Submitted by Members Post Hearing:

    Mrs. Hartzler................................................   166
    Mr. Norcross.................................................   165
    Mr. Scott....................................................   168
    Mr. Wittman..................................................   167
    
    
                DEPARTMENT OF THE AIR FORCE ACQUISITION

                   AND MODERNIZATION PROGRAMS IN THE

  FISCAL YEAR 2020 NATIONAL DEFENSE AUTHORIZATION PRESIDENT'S BUDGET 
                                REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                             Washington, DC, Thursday, May 2, 2019.
    The subcommittee met, pursuant to call, at 9:01 a.m., in 
room 2118, Rayburn House Office Building, Hon. Donald Norcross 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. DONALD NORCROSS, A REPRESENTATIVE 
  FROM NEW JERSEY, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Mr. Norcross. Good morning. We will bring this hearing to 
order. The subcommittee meets today to review the Air Force 
acquisition and modernization programs in the fiscal year 2020 
budget request.
    I would like to welcome our distinguished panel today.
    That includes the Honorable Will Roper, Assistant Secretary 
of the Air Force for Acquisition, Technology and Logistics; 
General Mike Holmes, the Commander of the Air Force Air Combat; 
Major General Nahom, Director of the Air Force Programs for the 
Deputy Chief of Staff for Strategic Plans; Lieutenant General 
Tony Ierardi--did I get that right? Terrific. Director of 
Structure--or Force Structure, Resources, and Assessments for 
the Chairman of the Joint Chiefs of Staff; and Vice Admiral 
Matt Winter, Director F-35 Joint Strike Program; the Honorable 
Bob Daigle, Director of Cost Analysis and Program Evaluation 
for Secretary of the Defense; the Honorable Bob Behler, 
Director of Operational Test and Evaluation for the Department 
of Defense; and Mr. Mike Sullivan, Director of the Defense 
Weapon System and Acquisitions for the Government 
Accountability Office, which I spent reading three of your 
reports about midnight last night. And thank you, very 
important.
    I want to thank our witnesses for your service and your 
time here today. Look forward toward your testimony. As we 
review Air Force budget requests today, we want to review the 
changes that have been made over this year's budget over last 
year. And understand why the difference from what was 
forecasted last year in fiscal 19 budget to this year.
    We need to understand how the Air Force budget request 
aligns with the objectives of the National Defense Strategy in 
competing and deterring our near-peer adversaries.
    What investments are being made to increase the combat 
effectiveness, capacity, and capabilities of the Air Force 
intelligence, surveillance, and reconnaissance, or the ISR, 
plat, as well as tactical combat and training aircrafts, 
rotorcraft, and munitions.
    What acquisition efficiencies and authorities are being 
implemented to more quickly modernize and reduce the advantage 
of many of our Air Force fleets of aircrafts under this 
subcommittee's purview.
    One of the most important, arguably controversial changes 
we will talk about today relates to the Air Force decision to 
start a new recapitalization of the F-15C fleet. This involves 
advanced fourth-generation version of the F-15 now called F-
15EX to complement the fifth-generation F-22 and F-35 
capabilities.
    We need to understand what new capabilities and certainly 
cost efficiencies the F-15EX can bring to the Air Force 
tactical aircraft portfolio and why the Air Force has shifted 
from what we heard for the last 4 years about fifth-generation 
fighters and why that has shifted. We also want an update on 
the F-35 program challenges in achieving significantly lower 
operational and sustainment costs that continues to dog this 
program.
    The Air Force has told us they are going to reduce those 
costs by 43 percent in order to afford owning and operating the 
original inventories we had proposed. Forty-three percent is an 
incredibly high number, but we certainly understand why that is 
happening. We also want to understand how the Joint Program 
Office will get control and fix the problematic ALIS [Autonomic 
Logistics Information System] system.
    We had a number of folks over the last 2 weeks brief us on 
that and looking forward in the program we need an update on 
the Block 4 development and its projected cost. In order to 
fully understand these issues we must first understand the 
capability and capacity of our tactical fighter industrial 
base.
    What is the F-35 Program Office doing to increase the 
stability of the prime contractor's continuing problems with 
supply chain and parts management for both new production and 
fielded aircraft? And how does this factor in to supporting an 
increase quantities of the future F-35A purchase?
    If we start to build the new F-15EX program, what are the 
production capacities and challenges anticipated by the Air 
Force? How will the Air Force ensure that the costs are 
controlled before committing to development and a production 
contract over several years?
    Fifth- and fourth-generation fighter aircraft [are] a 
critical capability for our Air Force, and this subcommittee 
will continue to support these programs. But we don't have an 
unlimited budget. We don't have an unlimited budget.
    We need to achieve real affordability, hard to define and 
sometimes elusive, but we can do this. The ranking member and I 
took an opportunity to travel, just a few weeks ago, to see the 
F-35 production line and then immediately thereafter went to 
the F-15 production line. And this is what makes you so proud 
of America. What we can build. What we can do.
    The facilities, the workers, were just remarkable. And very 
much understood where they fit in to our national defense. Mrs. 
Hartzler and I were impressed, I would even say inspired, and 
it was an excellent chance to see firsthand some of the things 
that we talk about here in this committee. And I want to 
publicly thank all those who made it possible to get that 
comprehensive look at these challenging programs. And certainly 
that fall into our jurisdiction.
    Similar to tactical aviation, the subcommittee is also 
paying close attention to the ISR program, and efforts to 
sustain modernized key capabilities. As everyone may recall, 
last year's budget included a seismic shift in Air Force battle 
management command [and] control modernization technology. The 
long planned recapitalization of Joint STARS [Surveillance 
Target Attack Radar System] aircraft was abandoned, and in its 
place, a new concept--new concept existing yet to be defined 
program, coined the ABMS, Advanced Battle Management System.
    The committee remains concerned about the lack of formal 
program structure, benchmarks, against which we would measure 
this ABMS progress, as well as uncertainty surrounding Air 
Force plans to provide effective and timely Ground Motion 
Target Indicator intelligence, the GMTI.
    The subcommittee is also focused on how the budget request 
supports sustaining the Air Force big-wing ISR programs after 
several budget cycles [of] uneven funding and support and 
alternative planning--to support alternating plans to terminate 
different programs.
    The Air Force appears to agree that we need all the current 
ISR capabilities it can muster. However, the service needs to 
map out a recapitalization program for those big-wing aircraft 
to ensure continued viability, relevance for the National 
Defense Strategy and the near-peer threats.
    I look forward to your testimony and discussing these 
topics.
    But before we begin with opening statements, I would like 
to turn to my colleague, who we just did our travel out west to 
a number of the bases, for her opening comments this morning.
    [The prepared statement of Mr. Norcross can be found in the 
Appendix on page 45.]

    STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
MISSOURI, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mrs. Hartzler. Thank you, Mr. Chairman. And thank you for 
organizing that trip, too. It was very helpful and very 
pertinent to what we are talking about today.
    I would like to thank everybody who is here today and to 
provide your testimony on the Air Force modernization efforts 
and the fiscal year 2020 request.
    The National Defense Strategy Commission concluded that, 
quote, regardless of where the next conflict occurs, or which 
adversary it features, the Air Force will be at the forefront, 
end quote.
    Modernization needs to be properly resourced to ensure the 
Air Force remains relevant and ready, which is why we need to 
work together to ensure a defense top line that shows real 
growth.
    If we fail to do so then we will erase all of the gains 
that we have made over the past 3 years. We have a 
distinguished panel of witnesses here today and, given their 
expertise, I look forward to having a healthy discussion on the 
appropriate fighter force structure required for the Air Force 
to meet the objectives of the National Defense Strategy.
    General Goldfein has stated that, quote, we are going to be 
a mix well into the 2030s of fourth-gen and fifth-gen fighters 
and they complement each other. One plus one, fourth gen plus 
fifth gen, actually equals three fighters if they are used 
correctly because they each make each other better, end quote.
    During my recent travels with the chairman, touring the 
fighter industrial base, and observing a recent Red Flag 
exercise at Nellis Air Force Base, it appears clear to me we 
will need a highly capable mix of fourth-generation and fifth-
generation aircraft complementing one another in order to meet 
the objectives of the National Defense Strategy.
    I understand the Air Force is striving for a 50/50 mix of 
fourth-generation and fifth-generation aircraft by 2030 that 
will meet that capability and capacity requirements.
    General Goldfein has also stated that the F-15C fleet will 
not make it to 2030. And that, begin quote, we have got to 
refresh the F-15C fleet because I can't afford to not have that 
capacity to do the jobs and the missions right. If that is the 
case, then we need to focus on what is best for the F15-C fleet 
and I look forward to discussing this critical issue today.
    The F-22 was the planned replacement for the F-15C fleet 
and the 2008 decision by the Office of the Secretary of Defense 
to truncate the F-22 buy is now proving that was a budget-
driven, shortsighted decision with long-term consequences. 
There is no doubt the capabilities the F-35 and fifth 
generation brings to the battlefield against advanced threats 
by peer competitors is critically needed to meet the goals and 
objectives of the National Defense Strategy.
    We all share concerns about rising F-35 operations and 
support costs affecting long-term affordability which could 
result in lower procurement quantities in the out-years.
    For today, regarding the F-35 program, I am interested in 
receiving updates and discussing the initial operational test 
and evaluation that is ongoing; the acquisition plan and cost 
estimates for the Block 4 modernization program; the findings 
from the last Selected Acquisition Report from the Department 
of Defense, which showed increases for both acquisition and 
operation and support costs; the actions being taken to 
increase availability of spare parts and improve overall 
reliability and performance; and the actions being taken now, 
in this budget request, to lower operation and sustainment 
costs, to include ramping up organic depot capability, 
improving the Autonomic Logistics Information System, or ALIS, 
and improving the time associated for long lead parts.
    The F-35 Joint Program Office along with the military 
services appear to be very focused on reducing these costs; 
however, significant challenges remain ahead. We look forward 
to working with each of you and industry in a collaborative 
manner to reach your objectives for this important program.
    Today is also a good opportunity for the witnesses to 
update us on what they are doing to mitigate physiological 
episodes and how the Air Force is coordinating efforts with the 
Navy.
    I was pleased that the budget request fully funds A-10 
modernization, to include the re-wing effort, and I expect the 
witnesses to address this program, as well as touch on any 
operational readiness challenges in the A-10 fleet.
    And finally, I am interested to hear today from our 
witnesses on the progress being made in the development of 
advanced munition capabilities. In order for us to maintain 
comparative advantage, we need to ensure that munitions and 
weapons are being upgraded and developed.
    So thank you, Mr. Chairman, for holding this important 
hearing today and I yield back.
    Mr. Norcross. Thank you for your comments. Given our large 
panel of witness today we ask they condense their opening 
remarks to approximately 3 minutes or less. And without 
objection, the formal written statements will be entered into 
the record. Without objection. So ordered.
    With that, we will begin our opening remarks with Dr. 
Roper, followed by General Holmes, Mr. Daigle, General Ierardi, 
Mr. Sullivan, Dr. Behler, Admiral Winter. That gives you 7 out 
of 8, so, we have a great panel here with lots of knowledge. 
But we also have a time factor. So thank you for being here.

STATEMENT OF HON. WILLIAM B. ROPER, ASSISTANT SECRETARY OF THE 
     AIR FORCE FOR ACQUISITION, DEPARTMENT OF THE AIR FORCE

    Secretary Roper. Chairman Norcross and Ranking Member 
Hartzler, members of the committee, thank you very much for 
holding a hearing on this important topic. I think it is fair 
to say that we are very excited to talk with you about the 
progress that we have made in this important portfolio. We are 
also very interested to talk about the challenges that we face 
and things that we can both work on together to overcome them.
    We will talk a lot about programmatics and requirements and 
specifics of programs but I want to just start by saying that 
we come into this review looking at a strategic environment 
again. You know, China is no joke. They have a plan, they have 
capabilities to match us, both technologically, operationally, 
and we have to regain the ability to compete with them over 
time.
    This committee has made important strides in giving us 
authorities to work at a greater speed, with greater agility, 
so that we do deliver capabilities at a speed of relevance for 
our warfighters.
    We are trying to make strides this year to increase our 
connection with a broader defense industrial base, be able to 
work with tech startups, be able to work with the entire 
innovation base this country brings.
    Because, ultimately, the bottom line is about giving the 
warfighter that critical advantage in the fight that the 
adversary doesn't have. I look forward to your questions today, 
to discussing the progress that we have made in acquisition 
reform.
    But we are by no means done. We can never be satisfied with 
the pace at which we move. We can never be satisfied with the 
capabilities that we have. This will be a competition over 
time. And I hope that you will find the Air Force is taking 
this challenge seriously and that we have made progress in 
becoming the competitive force that this nation needs.
    Thank you.
    [The joint prepared statement of Secretary Roper, General 
Holmes, and General Nahom can be found in the Appendix on page 
48.]
    Mr. Norcross. General Holmes.

 STATEMENT OF GEN JAMES M. HOLMES, USAF, COMMANDER, AIR COMBAT 
    COMMAND, AND MAJ GEN DAVID S. NAHOM, USAF, DIRECTOR OF 
  PROGRAMS, OFFICE OF THE DEPUTY CHIEF OF STAFF FOR STRATEGIC 
      PLANS AND REQUIREMENTS, HEADQUARTERS U.S. AIR FORCE

    General Holmes. The light doesn't come on, so. How is that, 
is it on now? Thanks. Okay, great, thanks.
    Good morning, Chairman Norcross, Ranking Member Hartzler, 
and distinguished members of the subcommittee. General Nahom 
and I thank you for inviting us to join you today. And as part 
of our thankfulness, we will combine our statement and just do 
one.
    I echo Dr. Roper's statement and I can attest to the 
acquisition advancements we have made under the authorities 
granted to us by the Congress. As the Commander of Air Combat 
Command, I am responsible for training and equipping much of 
the Air Force's fighter, rescue, command and control, 
intelligence, surveillance and reconnaissance, and cyber 
forces, all with the goal of ensuring that we present 
competent, effective, and lethal forces to combatant 
commanders.
    On behalf of the over 93,000 airmen in Air Combat Command, 
I would like to thank you for ensuring that we received an on-
time budget for this fiscal year. It is incredibly important 
for us in planning and execution stability, particularly as we 
focus on sustaining the force we have while we transition to a 
more modern force to meet the threats that Dr. Roper described.
    Because of that budget, we are on track to meet the 
readiness goals set by the Secretary of Defense and Secretary 
of the Air Force and are able to begin rightsizing our force in 
accordance with the objectives of the 2018 NDAA [National 
Defense Authorization Act].
    We do, however, face challenges in keeping these 
investments on track as a result of the natural disaster damage 
inflicted by hurricanes and floods at Tyndall and Offutt Air 
Force Bases.
    Moving forward, our 2020 national defense budget request 
provides the modernization and sustainment funding we need to 
grow into a stronger and more lethal force.
    However, as Dr. Roper discussed, we can't remain dominant 
against our peer competitors unless we also outpace them in our 
acquisition process. Our aging Air Force is currently too small 
to fight the wars of tomorrow.
    We have made strides, but we must not lose sight of our 
responsibilities to sustain what we have while we modernize for 
the future.
    I look forward to engaging with the Congress as we work 
together to address these challenges and again, thank you to 
the members of this subcommittee for your dedication to the Air 
Force, our armed services, and the American people.
    General Nahom and I look forward to your questions.
    Mr. Norcross. Mr. Daigle.

STATEMENT OF HON. ROBERT B. DAIGLE, DIRECTOR, COST ANALYSIS AND 
           PROGRAM EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Daigle. Chairman Norcross, Ranking Member Hartzler, 
distinguished members of the subcommittee, thank you for the 
opportunity to present to you today the results of the 
Department's collaborative efforts on TACAIR [tactical 
aircraft] mix.
    I will keep my opening statement very short. I just want to 
comment that I think this is a really good example of how the 
budget process can work well.
    In 2016, Congress tasked the Department to do a fighter 
force mix study. The results of that study have since been 
validated by service analysis and by operational testing. That 
information informed the deliberations inside the budget 
process, inside the building cycle, and resulted in an 
agreement between the Air Force and the Navy and the Department 
on the right way forward on TACAIR mix to meet the demands of 
the National Defense Strategy.
    I would like to thank your staffs, the staff of the Armed 
Services Committee, for the collaboration over the last few 
months following budget rollout; it has been a good team to 
work with. Thank you.
    [The prepared statement of Mr. Daigle can be found in the 
Appendix on page 86.]
    Mr. Norcross. General Ierardi.

   STATEMENT OF LTG ANTHONY R. IERARDI, USA, DIRECTOR, FORCE 
     STRUCTURE, RESOURCES, AND ASSESSMENT (J8), JOINT STAFF

    General Ierardi. Chairman Norcross, Ranking Member 
Hartzler, distinguished members of the subcommittee, thank you 
for your support to the men and women in uniform who serve our 
nation and for the opportunity to address your questions 
related to tactical air and land forces initiatives.
    In his testimony in March to the House Armed Services 
Committee, General Dunford discussed several challenges the 
Joint Military Net Assessment identified including the joint 
force's decreasing competitive advantage vis-a-vis our 
adversaries.
    The 2019 Joint Military Net Assessment, and a follow-on 
competitive area studies assessment by the Joint Staff, 
outlined capability, capacity, and readiness issues within the 
tactical air portfolio that informed the Chairman's program 
recommendations to the Secretary of Defense in preparations for 
this year's budget submission.
    The Chairman's recommendations focused on balancing the 
capabilities we need for today's operations with the depth, 
flexibility, and advanced technologies required to respond to 
the challenges of the future. From the joint perspective, 
fifth-generation capabilities remain essential to success 
against near-peer competitors.
    However, adapting the force we have today while we design 
the force needed for those challenges tomorrow, requires a mix 
of capabilities within the TACAIR portfolio.
    In the short term, the fourth-generation aircraft fleet 
provides essential capacity to meet the National Defense 
Strategy demands while we continue to acquire and modernize our 
fifth-generation aircraft.
    In the long term, this portfolio transitions to a majority 
of fifth-generation aircraft as we continue to acquire the F-35 
through 2040. In the interim, we must maintain a relevant mix 
of fourth-generation capability and capacity to meet the 
demands across the National Defense Strategy as multiple 
airframes exceed their service life over the next decade.
    I would like to thank you again for the opportunity to 
appear before this committee, and I look forward to your 
questions.
    [The prepared statement of General Ierardi can be found in 
the Appendix on page 91.]
    Mr. Norcross. Mr. Sullivan.

  STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR, DEFENSE WEAPON 
     SYSTEM ACQUISITIONS, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you, Mr. Chairman.
    I am here today to discuss the F-35 Lightning II 
acquisition and sustainment programs, as well as the Advanced 
Battle Management System. Development of the baseline F-35 
weapon system was recently completed after 18 challenging 
years.
    While the cost of development increased by more than 50 
percent and the services waited years longer than originally 
planned, the aircraft is fully capable today, when able to fly, 
to carry out all of its missions.
    The remaining issues now are reliability and affordability. 
The program tracks eight reliability metrics today for the 
aircraft and is currently on track to meet four of them. 
Meeting these targets is critical for maintaining the 
aircraft's availability and mission capability goals within an 
affordable 60-year life cycle.
    The current estimate for that cost is over a trillion 
dollars, and the Department is on record as stating that is not 
affordable. The program is working now to revise its 
reliability management plans and activities in hopes to make 
continued success as they move forward.
    The program has also initiated activities to modernize the 
baseline aircraft with new capabilities, known as Block 4 
modernization. The current estimated cost for this development 
program is about $10.5 billion through 2024.
    We have concerns that the program will sign development 
contracts that lock in risk before it has completed an 
independent cost estimate or technology readiness review, two 
key activities that help to reduce risk prior to committing 
large amounts of funding.
    We also believe that the modernization program should be a 
major defense acquisition program with its own cost and 
schedule baselines to provide the Congress with transparent 
program reporting.
    With regard to the status of sustainment efforts, we have 
concerns that those cost estimates continue to rise. A large 
part of these rising costs are significant spare parts 
shortages and limited repair capabilities.
    For example, between May and November of 2018, the aircraft 
was unable to fly about 30 percent of the time due to spare 
part shortages. GAO [U.S. Government Accountability Office] 
recently issued a report and made recommendations to improve 
this condition. The Department concurred with those 
recommendations.
    The Air Force's Advanced Battle Management System 
acquisition is still in its very early stages. It is planned to 
eventually manage detection, identification, and tracking of 
airborne, maritime, and ground relocatable targets.
    The Air Force is currently in the midst of performing an 
analysis of alternatives for delivering air-centric 
capabilities and is using an existing analysis to assess best 
alternatives for handling the ground target tracking 
capabilities.
    Because the program is so young, we only have very 
preliminary observations on that. However, we plan to continue 
to report on that program as things unfold.
    That concludes my statement, I look forward to questions.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 95.]
    Mr. Norcross. Mr. Behler.

STATEMENT OF HON. ROBERT F. BEHLER, DIRECTOR, OPERATIONAL TEST 
             AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Behler. Chairman Norcross, and Ranking Member Hartzler, 
and other distinguished members of the subcommittee, I too am 
honored to be here with this distinguished panel of witnesses 
to address the status of tactical air and modernization 
programs that fall under my oversight as the Director of 
Operational Test and Evaluation.
    I would like to focus my opening comments in two key areas: 
the status of ongoing F-35 initial operational test and 
evaluation, and the operational test infrastructure needed to 
support emergent technologies for new weapons.
    In January of 2018, I observed the start of F-35 
operational evaluations with cold-weather testing in Alaska. 
Working with the program office and the operational test 
agencies, I approved additional operational evaluations, which 
enabled IOT&E [initial operational test and evaluation] to 
start 11 months early.
    As of May, the test team has completed over two-thirds of 
all the open-air IOT&E testing and weapons events.
    Operational testing to date has included cybersecurity, 
open-air test trials, which included F-35 deployments and 
weapon employment.
    The test team has compared the F-35 to fourth-generation 
fighters against both legacy and modern surface-to-air threats. 
As prescribed in the fiscal year 2017 NDAA, comparison testing 
to examine the capabilities of the F-35A and the A-10C was 
completed last month, March.
    The existing test plan specifies two final phases in IOT&E 
as open-air electronic warfare trials against robust, surface-
to-air threats, and simulated dense, modern surface and air 
threats in the Joint Simulation Environment.
    I have guarded optimism that the open-air testing will be 
completed later this fall, followed by test trials in the Joint 
Simulation Environment that will stress the F-35 against 
validated models [of] real advanced world threats. The current 
schedule projects IOT&E to be completed at the end of this 
calendar year.
    Before closing, I would like to briefly turn to the topic 
of testing emergent technologies that are addressed in the 
National Defense Strategy such as hypersonics and artificial 
intelligence.
    This is a very complicated challenge. Emergent technologies 
will drive the need for new test infrastructure requirements. 
Technologies like hypersonic weapon systems will require 
advanced data collection, long-range tracking capacity, and 
safety issues.
    Weapons that use artificial intelligence and machine 
learning will require new measurement methods that can 
determine whether the computer will make the right decisions in 
combat.
    Thank you for your attention and your continuous support of 
the service men and women. I look forward to your questions.
    [The prepared statement of Mr. Behler can be found in the 
Appendix on page 117.]
    Mr. Norcross. Admiral Winter.

STATEMENT OF VADM MATHIAS W. WINTER, USN, DIRECTOR, F-35 JOINT 
      STRIKE FIGHTER PROGRAM OFFICE, DEPARTMENT OF DEFENSE

    Admiral Winter. Chairman Norcross, Ranking Member Hartzler, 
and the distinguished members of the subcommittee, I appeared 
before you last month with the Navy and Marine Corps. I am back 
here with my esteemed colleagues to talk about the U.S. Air 
Force acquisition and modernization efforts, and how the F-35 
participates in that and supports the National Defense 
Strategy.
    I continuously appreciate your insight, oversight, and 
interest in the F-35 program. As we look at what has occurred 
over this last year, considerable progress has been made, but 
as we have heard, there is still plenty of challenges that we 
must tackle together.
    We have finished our Block 3 flight test, we have delivered 
Block 3F warfighting capability, we have begun IOT&E, we have 
definitized our Lot 11 production aircraft at an $89.2 million 
F-35A. That is a 5 percent reduction over the previous lot.
    We have increased our U.S. depot repair capacity but not to 
the extent that we need to. We still have those challenges. We 
have upgraded some of our international maintenance and repair 
facilities in our European and Pacific region, and we have 
established credible flying hour metrics, cost per flying hour 
metrics, so we can get our hands around the total ownership 
cost for the F-35, together.
    We have also supported numerous U.S. service operational 
activities across our U.S. services--the Marine Corps and Navy, 
and United States Air Force--to include the United States Air 
Force first combat employment that occurred this week in the 
CENTCOM [U.S. Central Command] AOR [area of responsibility].
    In terms of Air Force modernization and acquisition, the F-
35 remains the Air Force latest fifth-generation fighter and is 
planned to operate alongside their fourth-gen and fifth-gen 
aviation capabilities.
    We see the F-35 truly as the quarterback of that joint 
force. And with its ability to collect, analyze, and share that 
data, it is a true force multiplier across the battlespace.
    With over 400 aircraft fielded across all variants, the F-
35 is more affordable and more lethal than it has been in the 
past. However, as I stated a month ago and I will tell you 
today, I am not satisfied as the PEO [Program Executive 
Officer] of the F-35 Joint Program Office.
    We still face challenges in repair span times, industry's 
ability to provide spare parts quality and on time, our 
production flow and production line inefficiencies, and some of 
the labor skills that are being drawn away from the military 
enterprise into the commercial enterprise for aviation demand.
    We are tackling these challenges together with a head-on 
clear mandate to drive in that affordability, that quality, and 
reliability across the enterprise.
    This year's President's budget requests the resources to 
achieve the goals of 80 percent MC [mission capable], to get to 
an $80 million F-35A, and to get to an affordable cost per 
flying hour and costs per tail per year for our U.S. services.
    On behalf of the men and women of the F-35 enterprise, you 
have my commitment to provide you the accountability and 
transparency the taxpayer demands, and the affordable game-
changing capability the warfighter needs.
    I thank you again for the opportunity to discuss the F-35 
program and look forward to your questions.
    Thank you, sir.
    [The prepared statement of Admiral Winter can be found in 
the Appendix on page 135.]
    Mr. Norcross. Thank you for all your testimony. The most 
expensive system that the United States has ever attempted, and 
we have some great results, but we have some challenges. 
Getting under that $90 million for the type A is great, but 
when the sustainment costs continue to be the numbers that we 
are looking at and not being ready 30 percent of the time, we 
have got some real challenges.
    So, for the last 4 years in particular, we have been 
hearing about fifth generation, fifth generation. And this year 
it was dropped on our laps about an F-15 coming into play.
    So, I want to start there. There is a number of other 
issues we have to address. General Holmes, past couple years we 
have been talking about the program that we are talking about 
today. The service life of the F-15C appears to be a real 
challenge at this point. Can you walk us through why this 
committee--I am fielding questions from virtually everyone 
saying, why are we only focus on fifth generation for years and 
now, fourth generation?
    Why don't you walk us through specifically what has changed 
in the last 11 months for this decision to come before us.
    General Holmes. Is that better? Thank you. I will try to 
get better.
    And to start, Mr. Chairman, I would go back to a couple of 
things that you talked about in your remarks and in the 
question. And the first is the limited budget that we face. 
Now, we have tremendous needs across the Air Force and across 
the armed services for improvements in modernization and 
sustainment, and we have to balance all those across all our 
portfolios.
    And the second one I think is the health and the age of the 
2,100 fighters that the National Defense Strategy requires for 
the Air Force to be able to accomplish the missions that they 
have asked us to do.
    We have been on a path of purchasing less than 20 new 
fighters a year since Desert Storm. So that is a 1 percent 
replacement rate. That would put us on a 100-year 
recapitalization schedule for our fighters. And so that is how 
we get to a fighter force that averages more than 30 years old.
    And the impacts of that are, our tremendous depot system 
and the American people that you saw on the assembly lines and 
also at the depots have worked miracles to keep those old 
airplanes useful. But we are getting to the point where it 
costs too much to do it. And the F-15C is a prime example of 
that.
    The airplane has structural problems that will require 
replacement of major structural members, the longerons that run 
lengthwise in the airplane, followed by the wings being 
replaced, and then followed by bulkheads on the center 
fuselage, which means it would be better to buy a new airplane 
than to try to work through those repairs.
    Mr. Norcross. That is important. Walk through. We 
originally budgeted approximately a million per plane. After 
the knowledge that came through on structural----
    General Holmes. Yes, sir.
    Mr. Norcross [continuing]. What did that take the number up 
to?
    General Holmes. Well, so, the exact number will depend on 
the time that you go after, but that million per plane was 
based on fuselage longerons. And as you add the wings and the 
fuselage into it, the initial estimates we dealt with were in 
the tens of millions per airplane.
    I think as we work with the prime contractor now, you can 
get that number probably down around $10 million or so per 
airplane, but that is an approximation. You don't really know 
until you open the airplanes up.
    What we do know is that right now we have airplanes that 
are failing the inspection and are being parked until we can 
order the parts to begin that replacement process and our F-15 
training unit at Klamath Falls in Oregon has nine airplanes 
that they are unable to fly because of the structural 
condition.
    If you look across the rest of our fighter force, the F-15 
is failing first. The A-10, as Ranking Member Hartzler, you 
know, pointed out, faces problems with wings. For the F-16 
fleet, it is service life extension program that will require 
many airplanes to go into the depot to be repaired, which will 
cut down the availability of the entire fleet.
    For the F-22, it is engines and the depot capability to 
support repairing and replacing engines to make up for the 
extra flying time.
    So, what that means is, that we need more airplanes per 
year, and we are approaching a crisis point to get there.
    And when we looked at the limited budget, as you pointed 
out, Mr. Chairman, we determined, along with the analysis that 
CAPE [Cost Assessment and Program Evaluation] did, and with the 
Department that the most cost-effective way to begin acquiring 
more than 48 fighters a year was to do a mixed buy of fourth- 
and fifth-gen airplanes.
    You know, why is it more cost effective? Matt, Vice Admiral 
Winter, and his team have done a great job with Lockheed of 
driving down the cost of the air vehicle itself and producing 
an airplane that we are very happy with.
    The guys flying the F-35 now are very pleased with the 
performance of the air vehicle itself and it is achieving great 
results at places like Red Flag, where Ranking Member Hartzler 
visited, and some of you were along with her, and in its first 
combat deployment.
    We still face challenges in the sustainment cost as you 
pointed out and as Vice Admiral Winter pointed out, that I hope 
we will get to. But it will be multiple years to drive those 
sustainment costs down to where they match the F-15.
    And then as we bed down additional fighters, there are 
additional costs that go with the beddown of the F-35 because 
you need low-observable maintenance facilities, you need some 
facilities that are not required for the F-15. There is 
additional cost per location if you add F-35s.
    So ultimately, the balance between cost and our urgent need 
to meet capacity has led us to propose that we pursue a mixture 
of both fourth- and fifth-gen airplanes as the most cost-
effective way to balance the capability that we need to acquire 
in the future with the capacity that we have to have every day 
to do the missions that the Secretary of Defense and our 
national leaders ask us to do.
    Mr. Norcross. So, what started this initial question is 
that the F-22 was going to replace the F-15. That came up 
short. Then the F-35, if it had originally ramped up we would 
not be in this position; we are considerably behind. So of all 
the inventory that the Air Force could have picked, why the F-
15EX?
    General Holmes. Thank you, sir. I think partly it was 
because of the F-15 being kind of the first airplane to fail, 
the F-15C. And if we want to replace aircraft and have the 
minimum impact on readiness across the Air Force, then 
replacing like aircraft with a reasonably like aircraft offers 
us the least reduction in readiness while we do it.
    If an Air National Guard unit transitions from the F-15C to 
the F-35, it takes about 3 years to fully train all the aircrew 
members and the maintainers that work on the airplane in the 
unit because a lot of them are part-timers, and they have to 
schedule their training over a long period of time to be able 
to work through that.
    If you replace the F-15C with an F-15EX, much of the 
airplane is the same, it is a very short training period to 
transition maintainers. A very small training program to 
transition aircrew members. And so it has the least impact on 
reduction or the least impact on readiness, excuse me, of the 
force during a transition.
    And then we are able to take advantage of investment that 
other nations had made in improving the F-15 airframe. Saudi 
Arabia and Qatar had spent money to develop improvements to the 
airplane that would now be available to us at a reduced or no 
cost to incorporate. And for combination, I think for those two 
reasons, we picked the F-15EX.
    Mr. Norcross. And we are focused on this because this is a 
major shift on the thinking. We are not anywhere near what the 
original projections were in purchasing the F-35, for a variety 
of reasons.
    Would there be a scenario, given what we understand now for 
the F-35 line, that you would have to almost double the 
production in order for it to come in at a replacement rate 
that would keep the F-15EX from coming online?
    Do we see that ability with the parts, like, coming in 
anywhere near what they need to? Is there anything we can do to 
the F-35 line to prevent us from going to the F-15EX?
    General Holmes. Mr. Chairman, I would probably ask for the 
details of that question to go to my friend Vice Admiral Winter 
in the Joint Program Office. But as we looked at the, what we 
think of as the seven or eight elements that it takes to 
actually field the weapon system of the F-35, producing the 
aircraft itself is one part of that. It is then keeping up with 
a simulator that matches the configuration of the airplane.
    It is the AME [Alternate Mission Equipment], the other 
equipment that goes on the airplane where you can hang bomb 
racks and do those parts of it. It is the joint planning 
system, it is the ALIS. It is all the different parts, 
sustainment, depot of the system.
    My concern would be bringing all of those eight elements 
along at the same time because right now, the air vehicle is 
out ahead of those other elements.
    And so, producing more airplanes would be one part of it 
but keeping up in all of those other areas, to me, would be the 
challenge. But I think Vice Admiral Winter is more prepared to 
answer that.
    Mr. Norcross. And we need to be focused. I get more 
questions on this issue than any other item. Why the shift. So, 
we are not backing off of the F-35. Is that an accurate 
statement?
    Admiral Winter. That is an accurate statement, sir.
    Mr. Norcross. Is there anything, in your opinion, we could 
do, given the facilities, given the parts issue, the 
sustainment cost, that we could focus on in order for us not to 
also bring in that fourth generation?
    Admiral Winter. So, Mr. Chairman, I will talk about the 
business case that makes affordability a lucrative optic for F-
35, and I will allow General Holmes and others to talk about 
would they not purchase F-15s.
    But from an F-35 perspective, when we look at it 
theoretically, and when I mean that, bill of material, what 
does it cost to actually assemble an F-35. And we do that in a 
propulsion--so, engine from Pratt & Whitney, and the airframe 
and systems from Lockheed Martin.
    When we look at our cost analysis for that, we can see a 
bill of material that is in an affordable range below $80 
million. We can see----
    Mr. Norcross. That is for the purchase?
    Admiral Winter. Yes. Yes, sir. I would start with the 
purchase because if you don't buy them, you don't need to 
sustain them. The fact that we are making that progress, and we 
are seeing the actual progress, is encouraging. My challenge is 
in the assembly.
    So, the bill of material and the cost of the material keeps 
coming down because of volume. But the ability for those 
vendors and the supply chain to get those parts to the 
production line at the time we need them as the airframe is 
coming down the production line, is behind.
    And so therefore, the cost, the labor cost of the human 
beings putting these things together, is my biggest cost 
increase. And so therefore, I am hitting a stagnant plateau 
with Lockheed Martin because they are 600 parts a month behind, 
on average; 600 parts not on the production line when I need 
them. So the aircraft is going slower down the production line 
than I need it to be. That drives cost.
    And from that cost, I have to look across my portfolio. And 
when I look at sustaining the 400-plus aircraft that are out 
flying right now, I need parts to fix the airplane.
    As Mr. Sullivan said, the reliability is getting better, 
but it is not where it needs to be. So it is a multi-
dimensional interdependent problem that we are trying to solve.
    Mr. Norcross. So, you are telling me the production line is 
in competition with the repair line for those parts when they 
become available.
    Admiral Winter. I am saying the supply chain is----
    Mr. Norcross. Yes.
    Admiral Winter [continuing]. In competition, absolutely, 
sir. That supplier that generates a widget is generating a new 
widget for the production line, for our spares package, and we 
still have them repairing the ones that are breaking in the 
field.
    Our initiative, to Ranking Member Hartzler's comment, we 
are taking that demand off the supply chain by putting it into 
our U.S. Air Force and Navy and Marine Corps depots here in the 
United States so we can repair the broken parts, allowing the 
supply chain to focus on generating new parts. But we are not 
there yet.
    Mr. Norcross. I know Mrs. Hartzler has some questions on 
the F-15 and we will get back to some of my questions because 
everyone here is very focused on this.
    Mrs. Hartzler. Really, really good discussion, good 
questions, Mr. Chairman. Just to follow up on some of this.
    So, I wanted to give Dr. Roper, and Mr. Daigle also, an 
opportunity to weigh in a little bit why the Air Force is 
buying a new fourth-generation aircraft over the advanced fifth 
generation.
    Do you have anything you want to add? General Holmes gave a 
good explanation, but do you have anything you want to add?
    Secretary Roper. Ranking Member Hartzler, the number of 
aircraft that are needed to keep our readiness comes to me as a 
warfighter requirement.
    So, the Air Force, working with others, look at the number 
of fighters that we need to buy each year to make sure that we 
have the capacity to go to war. And I think it goes without 
saying, we want as many fifth-generation systems as we can 
possibly have. We want to get the F-35 healed and fixed and 
into full-rate production so that we can become an increasingly 
fifth-generation force.
    But because of issues in the past, we can't buy that number 
of airplanes currently. And so, when the Commander of Air 
Combat Command says, I need more than 48 fighters per year, the 
Chief of Staff, we have to go look at the fourth-generation 
line.
    Now, General Holmes hit it exactly correct. The F-15C is 
very difficult to sustain. I have been to Tinker Air Force Base 
twice to go through the F-15C line in depot maintenance. It is 
a hard aircraft to maintain, because over two-thirds of the 
fleet is past its service life.
    We are having to now replace parts that weren't intended to 
be replaced. These are difficult to purchase, they have long 
lead times, especially the longerons. And so we are past the 
point the fighter was supposed to be.
    Now, when you look at, is there an option to try to provide 
the warfighter a solution other than try to extend the Cs 
further in the future than they were meant to go, we can pivot 
to what our foreign military sales have done on the F-15E line. 
The upgrades that the Qataris and Saudi Arabia have done to 
that line would be major defense acquisition programs in and of 
themselves.
    They have upgraded the radar, they have upgraded the 
avionics, they have updated the electronic warfare and the 
cockpit.
    So this is a lot of foreign investment in that system that 
our warfighters can benefit from.
    So going back to Air Combat Command and our Chief of Staff, 
I have two options to try to give them more than the 48 F-35s 
that they are getting.
    It is a plan to try to sustain the Cs at high cost, or 
pivot to try to buy a much better aircraft that will be much 
more sustainable.
    And from the acquisition point of view, of course, 
modernizing and benefiting from those over $2 billion of 
foreign investment is an appealing plan.
    Mrs. Hartzler. Very good, thank you.
    Mr. Daigle, and I want you to expand a little bit more on, 
you alluded to, in your comment, that this whole mix study 
began in 2016 with Congress and the NDAA requiring this study. 
And as a result of that, that is what has resulted in the 
TACAIR mix that is being put forth.
    So at what point in your study did you identify that we 
wanted to have F-15s and F-35s this year?
    Mr. Daigle. So the fighter force mix study and subsequent 
analysis basically showed that as far as the eye can see, the 
Department will need a mix of penetrating assets and standoff 
assets. And this is common across any kind of portfolio we want 
to look at.
    If we look at ISR, we have some very high-end penetrating 
stealthy ISR assets. We also have, for example, MQ-9s that are 
not really useful in that kind of environment that are really 
useful in permissive environments.
    The same is true on the bomber fleet. We have, you know, 
high-end penetrating bombers, we have standoff bombers that are 
basically very large missile trucks, for lack of a better word.
    So from our perspective, this is another version of that 
same conversation of how do we match the capabilities that we 
can procure to the mission sets that are generated under the 
National Defense Strategy. And that is what the fighter force 
mix did.
    And it said, kind of as far out as the eye can see, that 
some kind of mix is going to be appropriate. And then we get 
into the affordability question. We have already talked in the 
room a number of times about the sustainment cost of the F-35 
vice the sustainment cost of fourth-generation platforms.
    And, Chairman Norcross, if you go back to a question that 
you asked about, could we ramp up. From the analysis that the 
Department has done, the next marginal dollar wouldn't 
necessarily go into increasing the richness, if you will, of 
the tactical aircraft portfolio.
    If we look at tomorrow's warfights, the things that really 
matter are joint communications, space control. So, as long as 
there is a delta in the costs of the planes, and the Department 
doesn't see a pathway right now where we can get fifth-
generation sustainment costs down to what we are seeing on the 
fourth-gen fleet, as long as that delta exists, then prudence 
dictates buy the platforms that align to the mission set in a 
way where you can kind of get as much capacity out of the 
available dollars as you can, and then take any money that you 
have left over and put it against the really highly critical 
gaps in the warfighting portfolio.
    And again, I would naturally look to cyber and space and 
joint communications, joint battle management. Those things are 
really the drivers for the effectiveness of the joint force 
going forward based on the analysis that the----
    Mrs. Hartzler. Okay. Very good.
    Mr. Daigle [continuing]. That the Department has been 
doing.
    Mrs. Hartzler. Thank you. I would like General Holmes and 
General Nahom to talk a little bit about how the F-15X and F-35 
complement one another in their capability perspective and what 
unique capabilities that F-15X bring into the tactical fighter 
inventory, whether in terms of range, or payload, or standoff.
    General Holmes. Yes, ma'am. So beginning with the statement 
that, you know, there are environments that the F-35 can 
operate in that the F-15EX can't. And that is a simple fact. 
There are places that you wouldn't want to send the F15-EX that 
you can send the F-35 as part of a team.
    But in the environment, say, of the last couple of years of 
combat over Syria, where we faced Russian air defenses and 
Russian fighters, the combination of F-15s, A-10s, F-16s, 
paired with an F-22 as a fifth-gen quarterback to be able to 
detect threats that the others can't, to be able to pass 
information to them that they wouldn't get on their onboard 
systems, has made them more effective and kept them safer in 
that environment.
    And with the F-35 deployed there today, you will see the 
same thing and the benefits of partnership.
    When the F-35 gets more information than anybody else has 
and then shares it across the network, then it makes the whole 
team better. And then the capacity that is in the fourth-gen 
fleet means that you can carry more weapons, you can stay out 
there longer. And so they do complement each other.
    And as Mr. Daigle pointed out, no matter where we go with 
trying to get the 72 airplanes for the foreseeable future, we 
are going to have a mix of fourth- and fifth-gen airplanes 
flying together and fighting together to deter or counter the 
threats that we face.
    Mrs. Hartzler. General Nahom, do you have anything you want 
to add?
    General Nahom. No, ma'am. Just that that was really what we 
looked at very closely with our friends in CAPE over the 
summer. There is a difference in the costs of operating these 
airplanes right now based on the numbers we looked at over the 
summer. And it was trying to get to that capacity because when 
you get into--even in the 2030s, 10-plus years from now, there 
are missions we are going to rely on fourth-generation 
airplanes to accomplish.
    Certainly they can't do some of the missions as General 
Holmes highlighted. But there are missions we are going to need 
to get done and we are going to rely on fourth-generation 
airplanes.
    The F-15E, the A-10 for the next 10 years, and certainly 
the later block F-16s. And a significant problem we had looking 
at the portfolio as Dr. Roper highlighted, that we can't rely 
on the F-15C to get us to that point. So it was about a fill in 
that capacity.
    Mrs. Hartzler. Very good. I have a few more but let us get 
to some other members here. Thank you.
    Mr. Norcross. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman. I had some questions 
for Dr. Roper.
    What is the length of the projected life extension of the 
173 A-10 Thunderbolts that have received new wing sets, and of 
the remainder that are planning to receive new wings?
    Secretary Roper. Congressman, thank you for the question. 
We are currently going through the source selection for those 
wings right now. We are certainly hoping that we are going to 
get to benefit from modern digital engineering practices so 
that we will be able to do the re-winging quickly. The 
specifics of how long we are going to be able to extend are 
going to be based on the specific proposals that come from 
vendors. But I am hoping for, you know, for at least 10 years.
    So, I will take that for the record and once----
    Mr. Gallego. Okay.
    Secretary Roper [continuing]. We are through selection, I 
will make sure I get you that information, sir.
    [The information referred to can be found in the Appendix 
on page 161.]
    Mr. Gallego. Good. I also see in the hearing memo that the 
remaining 108 A-10s in need of new wings will be delivered by 
fiscal year 2022. When will the re-wing of those aircraft be 
completed?
    Secretary Roper. Again, Congressman, that does depend on 
the specifics of the proposal. But we are incentivizing the 
rapid re-winging as quickly as possible. That is one of the 
performance metrics.
    So, we know the warfighter needs to be able to fly those A-
10s so we are incentivizing speed in the selection, sir.
    Mr. Gallego. And the warfighter on the ground needs their 
air support.
    Mr. Behler, I understand that you are moving forward on the 
comparison testing between the F-35A and the A-10C. And that 
testing the two planes' close air support, combat search and 
rescue, and airborne forward air control capabilities was 
completed in March at Edwards Air Force Base--almost messed it 
up, in March at Edwards Air Force Base.
    Do you have any initial results of this operational testing 
that you would like to share with us? Mic.
    Mr. Behler. Thank you very much for that question. We did 
complete it last month. We are still, of course, analyzing the 
data. The first testing was done last April. We got about two-
thirds of it done then. And then the A-10s had to go back to 
the operation.
    Brought them back in March and we were able to really 
stress both airplanes. And the whole idea was basically to look 
at the capabilities of both. I just want to make sure everyone 
realizes, this is not a fly off, which was better, because they 
both have awesome capabilities, kind of the same line of 
comments that General Holmes had.
    We stressed these both day and night against moving 
targets, terrain where it is urban, we used the threats on the 
ground were radar-guided SAM [surface-to-air] missiles, we had 
MANPADS [man-portable air-defense systems], we had AAA [anti-
aircraft artillery]. So this was a very stressful environment. 
When we had the combat search and rescue, we actually had a 
downed crew member out there at nighttime. And during that 
mission, we actually brought in either HH-60s or MC-22s to 
recover the downed crew member.
    So, it was a very, very stressful thing but, you know, I am 
trying to--I have to stay within the operational security 
aspects, because----
    Mr. Gallego. Sure.
    Mr. Behler [continuing]. We have airplanes in combat as we 
speak with both of these. But I will just give you two very, I 
think, important points that we were able to find so far 
without analyzing all the data.
    Is, the F-35, as we expected, has a big advantage in a high 
threat scenario where the stealth and sensor fusion really 
helps. In a lesser threat environment, we were able to put more 
weapons on the wings of the F-35. So, we were able to get much 
better loads on the aircraft.
    The A-10C, as we thought, in a low threat environment, with 
more fuel and more weapons, they really do a very good job. And 
the other part about the A-10C is that they specialize avionics 
for those three missions that you have mentioned.
    And one thing that can't be overlooked is that there is 40 
years of experience close to the ground with the A-10 and 
training really matters. We had, in the second part of the 
testing in March, we had A-10 pilots, former A-10 pilots, that 
are now part of the F-35 force.
    Mr. Gallego. Mr. Behler, just because I want to get a 
couple more questions in, I am going to cut you off.
    Mr. Behler. Okay.
    Mr. Gallego. When will get the full report? As to the 
committee.
    Mr. Behler. Well, the committee will get the full report 
with the Beyond LRIP [Low-Rate Initial Production] Report which 
I hope is going to be at the end of this year. But we analyze 
the data. I would be happy to come at the right forum and give 
you the data as we see it when we have it.
    Mr. Gallego. And who will be responsible for the final 
report? Will be it OT&E or the F-35 Joint Operational Test 
Team?
    Mr. Behler. It will be me.
    Mr. Gallego. It will be you.
    Mr. Behler. I write the final report. It is called the 
Beyond Low-Rate Initial Production Report.
    Mr. Gallego. Okay. And then what action does the Department 
intend to take based on this testing? Operational changes, 
change the deployment of the aircraft, or changes in terms of 
acquisition plans?
    Mr. Behler. For the F-35 or?
    Mr. Gallego. For the A-10C.
    Mr. Behler. Well, I think--we did find something that we 
are finding, and we found the other day when we flew the F-35 
in combat, is when we flew the fifth gen and the fourth gen, 
there was a very good synergy of the two platforms.
    The F-35 works as a great quarterback. It is like a mini 
AWACS [Airborne Warning and Control System] out there. Data 
fusion, to be able to coordinate with the fourth gen really 
provides a good performance.
    I think the biggest thing that may come out of this is 
developing new tactics to be able to do these missions and with 
a fifth-gen, fourth-gen mixture.
    Mr. Gallego. Okay. Thank you. I yield back.
    Mr. Norcross. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. I want to get back to 
the F-22. I am not happy at all, but that is ancient history. 
It is gone. What I am unhappy about, I still always ask the 
questions about the parts for the F-22. And here we go again.
    Why have that aircraft if you don't have the parts for it? 
It is just like the F-35. And I am showing my ignorance, but I 
think that is unpardonable, because that is a great aircraft, 
just as we are finding out about the F-35.
    I had more questions about the F-35, it is too expensive, 
and I was probably the biggest pain on this committee, which I 
haven't changed at all.
    But how can we ensure that that F-22, particularly in NORAD 
[North American Aerospace Defense Command] and everything else, 
and that is going to be one of our major points of--that they 
have those parts. I am going to start asking over and over 
again. Because I think there was C4 or C3 often, which means 
not combat ready or not deployable.
    General Holmes, by the way, thank you for Red Flag, 
everybody on this committee should go there, it was fantastic.
    General Holmes. Thank you, Congressman. I, you know, I 
agree with you that the Air Force, we need to sustain the 
aircraft that we have and what I would come back to is the 
budget pressures that the Air Force was under with the Budget 
Control Act and the tight budgets that we looked at, and going 
back to the chairman's comment of a limited budget. Trying to 
balance through that period.
    Mr. Cook. Yes, I know, but a few of us here, Mike Turner 
always raises hell for the Air Force if he has had a haircut or 
not.
    [Laughter.]
    Mr. Cook. But there is a number of us that are strong 
advocates, and you remember when the U-2 was going to be 
killed, and General Scaparrotti said No, I need it in Korea. 
And I think it was one of the best decisions. By the way, I 
like the part where the U-2 is up--and that thing, the U-2 was 
not as old as I am, but it is getting close, because I am lying 
about my age every year.
    Admiral Winter. Sir, if I could, this year we moved almost 
half a billion dollars in----
    Mr. Cook. I know, I know. And I love it. And just the fact 
that you take the frame, you do it all over again, put all 
the--I think that is, you know, a way to go. So, I am very, 
very happy with it.
    Admiral, on the F-35 variant with the machine gun, are the 
problems over where that works external? I thought it was 
something problem or kind of, and I am not an aviator, 
obviously. I am a ground guy. But have we solved that with the 
machine gun? External? Maybe that is a bad phraseology to the 
aircraft. You know what I am talking about, I think.
    Admiral Winter. Yes, Mr. Congressman, thank you. For the F-
35A, they have an internal machine gun, Gatling gun. And for 
the F-35B and C, they have a pod----
    Mr. Cook. Okay.
    Admiral Winter [continuing]. That is on the center line 
that is----
    Mr. Cook. I am talking about the B and C, primarily.
    Admiral Winter. Yes, sir. So, we have overcome the 
manufacturing inefficiencies that were the initial concerns of 
those gun pods with General Dynamics. And to date now, the 
testing of those gun pods are meeting the specification. The 
lethality evaluation is still ongoing by the operational 
testers.
    Mr. Cook. Good. My last question.
    And, Mike, close your ears. The S-400 [Russian anti-
aircraft missile system], which as we know, we have had 
discussions with some of our allies that are acquiring the F-35 
and also the S-400, this is going to be a problem with NATO 
[North Atlantic Treaty Organization] allies, I am afraid.
    How concerned is anyone on this panel with the fact that we 
have perhaps one of the greatest aircraft, and you look at the 
screen, and no one detects us. It is going to change if we have 
that interface of technology, what have you. Any? No one wants 
to tackle that one at all? Probably smart reply. But yeah, 
Admiral.
    [Laughter.]
    Admiral Winter. Well, sir, I will take the first stab. 
First of all, the Department and the administration has been 
very clear that an S-400 and an F-35 is incompatible, and we 
are on the record for that. And senior administration continues 
to have open dialogue with their counterparts in the government 
of Turkey.
    From an F-35 perspective, we have been given direction to 
ensure that we can minimize any disruption from supply chain, 
for example. In the event if anything occurs later this summer, 
we are tracking to the first aircraft arrival which are those 
two Turkish aircraft that are scheduled to fly into country in 
November, which will not occur if they procure the S-400.
    I stay out of the S-400, but from an F-35 perspective, I 
can give you confidence that we are doing the appropriate 
actions in advance to minimize production disruption and to 
safeguard the technology that we have invested in. Yes, sir.
    Mr. Cook. Thank you, Admiral. I am done.
    Mr. Norcross. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I am an Army guy and 
for those of you that didn't view the hearing yesterday, the 
Army fielded only four people to handle Army modernization. I 
see you have doubled the number here. I don't know what that 
says about the Air Force capability or capacity or readiness, 
but we are glad to have you here.
    Let me ask you about the F-35 and specifically the 
lifecycle sustainment plan. And in the plan, it outlines a 
approach to getting to $25,000 cost per flight hour. And I 
think everyone seems to be in agreement that we can get there 
by 2025 and please correct me if I am wrong.
    And my question is, how has the cost to operate the F-35 
fleet come down since the first IOC [initial operating 
capability]? My understanding is that the cost controlled by 
the industry team have come down by about 15 percent over the 
past 2 to 3 years, and what actions is the Department doing to 
reduce the cost to operate and support the F-35.
    And whoever is best equipped to field it, you will know 
better than I would.
    Admiral Winter. Mr. Congressman, I will start that from 
the----
    Mr. Brown. Okay.
    Admiral Winter [continuing]. F-35 JPO perspective first. 
First of all the lifecycle sustainability plan, the LCSP, as we 
call it, I will tell you that the traditional document is one 
that usually gives strategic guidance. This time, the 
Department took a different tact, and it is truly an 
implementation plan, with crisp actions, with followthrough, 
and metrics to track our ability to truly get our hands around 
the lifecycle costs of F-35. And we use the LCSP as our 
document to move forward with.
    From a specific ``25 by 25'' [$25,000 by 2025] I will tell 
you that our current F-35A cost per flying hour is $44,000. 
That is on the record. That is actuals from fiscal year 2018. 
We have targets over the FYDP [Future Years Defense Program] 
and we have been doing--over the next 5 years to understand how 
we can actually march down the cost per flying hour to get to, 
as I said in my opening statement, to an affordable cost per 
flying hour for the United States services. Because they have 
other demands for those resources outside of the F-35.
    Right now, we are targeting a $34,000 cost per flying hour 
for the F-35A in 2024. We know the levers, we know the 
initiatives in spare parts, in what we call depot-level repair. 
Being able to repair those parts. The ability for our service 
members to actually conduct the maintenance on the flight line, 
which reduces the turnaround times, and be able to give them 
the tools and the maintenance plans to be able to do that work.
    Mr. Brown. So, are we confident that we can get to 25 by 
25?
    Admiral Winter. I will go on the record, sir, that 25 by 25 
is a target.
    Mr. Brown. Okay.
    Admiral Winter. I am targeting 34 in 24.
    Mr. Brown. Okay.
    Admiral Winter. So, it----
    Mr. Brown. Let me, if I can, because I have another 
question, and I don't have much time.
    Admiral Winter. Yes, sir.
    Mr. Brown. Like Representative Cook, oh he is no longer 
here. I am not really a ground guy, but I love the ground guys. 
I was rotary wing, so I am low and I am slow, and I like the A-
10. And I know that you have talked about the A-10 versus the 
F-35 in terms of assessing its mission performance.
    Moving away from that, given the conversation that we have 
been having about F-35, F-15X, what does that mean for the A-
10? Are there, you know, and in terms of between now and when 
we project to be the last flight hour of the A-10 and the 
milestones between now and then, has any of that changed? And 
when is the last flight hour of the A-10?
    General Holmes. Thanks, Congressman. We like the A-10 too. 
And when you do the analysis, it is our most cost-effective and 
effective platform in that permissive environment to operate.
    And we plan to keep the A-10, we plan to re-wing A-10s, we 
plan to get to the rest of their structural issues and what we 
call the hog back. And when you take care of wings and the hog 
back, the airplane can fly a long time. Beyond the ability of 
some of our other fourth generation----
    Mr. Brown. And let me just say this in my last 30 seconds, 
what I like about the A-10, aside from the performance 
evaluation, and the cost, and the fact that it is in the 
Maryland National Guard.
    But what I really like about it is the F-35 is highly 
sought after. And everyone is going to be competing for that 
air time, and for that mission. But the guys on the ground, the 
men and women on the ground, they know that the A-10 has really 
a limited mission set--that it is close air support and that is 
what they want.
    So, I hope that the A-10, and I am picking up perhaps where 
McSally left off when she went over to the Senate. I hope the 
A-10 has a long life remaining in the fleet.
    Thank you, Mr. Chairman.
    Mr. Daigle. Mr. Chairman, may I have 1 minute to respond? I 
just want to go back to the cost per flying hour for the F-35.
    The JPO estimates--in 2024 is $34,000 per hour. For the As, 
our estimate's $36,000 per hour for the As, about the same.
    The Department doesn't see a path to get to $25,000 per 
flying hour by fiscal year 2025. There is a fair number of 
studies going on right now that are going to provide some more 
information to that.
    But that is a target, and it is not our projections for 
where we are actually going to be. And then after 2024, our 
projections are that the cost per flying hour are going to 
start to flatten out and increase a little bit because the 
planes are starting to age, and we are going to have to bring 
them back into depot and so the costs are going to increase at 
that point, so.
    Mr. Norcross. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. And because I saw my 
friend, the gentleman from Ohio, Mr. Turner, scribing out his 
potential rebuttal to Mr. Cook's comments about Turkey, I 
wanted to echo Colonel Cook's concerns.
    If Turkey wants to be treated like an ally, they need to 
act like one. And I appreciate Admiral's statements about the 
incompatibility of their plans with the S-400 and the F-35. But 
I am increasingly concerned about Turkey's malign influence 
campaign globally, and specifically in Venezuela.
    And so, where they are extracting gold, they are bringing 
it back to prop up the lira, and that is creating broader 
instability. And so I think that the concerns with Turkey go 
beyond just the S-400. I think there are other foreign affairs 
concerns that we have with them, and I would be deeply 
concerned about the delivery of the F-35 system to them at this 
point given their broader bad behavior.
    Moving more specifically to the subject of our hearing, 
Admiral Winter, I represent the great folks with the 33rd at 
Eglin Air Force Base that are engaged in the training mission 
with the F-35. They have at times been concerned about the 
delivery of parts so that they are able to complete the 
training syllabus and get you your great aviators to go and 
populate combat squadrons.
    I have received more recent feedback that the standing up 
of parts depots and the Congress' investment in additional 
parts resources has been helpful. But can you provide an update 
as to our expectations to deliver those parts, because what I 
hate hearing from the 33rd is that, you know, they will send a 
part for repair and then that part will head out to a combat 
squadron and then we are kind of eating our seed corn.
    And I know getting those parts to our combat squadrons is 
important but if we are not training the next generation of 
aviators, then ultimately that has an impact on the durability 
of our mission. Admiral.
    Admiral Winter. Mr. Congressman, thank you for that 
question, and your concern is a valid one. Our training fleet 
has been a priority behind our warfighter-coded--combat-coded 
fleet. And as we ramp up our parts production and parts 
delivery, we have gone back to the services, the Air Force, 
Navy, and the Marine Corps, to ensure that those priorities are 
aligned to their service priorities.
    What is really bringing the training fleet back to full 
capability is the modification from TR-1 to TR-2. So that is a 
technical refresh of those older jets that are predominately 
down at Eglin and being able to have the updated capacity for 
computing, for displays, and for the radar and other systems 
that will increase their reliability.
    That will be completed by the middle of next year. Right 
now, we are targeting June of 2020 of not all of just the 
training, but for the entire fleet. That is a first order 
effect of getting those, the 33rd specifically, up to the 
reliability levels of the rest of the fleet. Thank you, sir.
    Mr. Gaetz. I appreciate that. And one of the other benefits 
that the 33rd has due to their location is that they are able 
to access the Gulf Test Range in a lot of their work and in a 
lot of the execution of the syllabus.
    Can you speak to the importance within the training mission 
of having access to the telemetry and radar systems that allow 
our aviators to be well prepared when they head on to combat 
squadrons?
    Admiral Winter. Mr. Congressman, as the PEO for F-35, I 
think that is more in the lanes of either General Holmes or 
others.
    Mr. Gaetz. Sure.
    Admiral Winter. But we provide the compete capability and 
the support for that training output.
    Secretary Roper. Congressman, Yes, we are really struggling 
with the mics here, but we are going to just try to push really 
quickly to get in. So, I cannot underscore enough how important 
our ranges are. I mean, we are dealing with a peer competitor 
again, which means we are going to have to test in 
operationally realistic environments. And they are going to be 
places that we are going to trust simulation but there is 
nothing better than getting data in the real world.
    And so, the testing that we are able to do both in the Gulf 
and in some of our other ranges is critical to getting 
acquisitions correct. So, you will find us fierce champions of 
keeping our ranges fully operational, fully funded so that we 
get the benefits that they give Air Force acquisition and the 
Department as a whole. Because we test more than----
    Mr. Gaetz. And the Gulf Test Range offers unique 
capabilities, right? Because it is the only place where we can 
live fire over water and have munitions land on land, right?
    Secretary Roper. Only place you can live fire over water, 
you have got our program executive office for weapons is at 
Eglin Air Force Base, so that is serendipitous. So, Eglin is a 
very important base for us in the Air Force. It is important 
for the nation.
    Mr. Gaetz. And is it a good idea or a bad idea to launch 
experimental missiles over oil rigs?
    Secretary Roper. It is probably not a good idea, 
Congressman.
    Mr. Gaetz. Right, right. So, I think it is critically 
important, as we are hearing you say, that in echoing Ms. 
Hartzler's comments that, you know, our munitions development 
is critical to execution of the National Defense Strategy to 
meet our near-peer adversaries.
    The only place we are able to do this particular type of 
testing is the Gulf Test Range. And if 2020, if we do not take 
action in the NDAA or otherwise, we are going to have oil rigs 
there, instead of the weapons testing that we need to preserve 
the country.
    Thank you, Mr. Chairman. And I yield back.
    Mr. Norcross. Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair. I just want to take a few 
moments, gentlemen. First of all, thank you for the 
conversation about the thinking behind your proposal for fifth-
gen, fourth-gen mixture. I appreciate that very much.
    I want to echo the sentiments of Representatives Brown and 
Gallego about the A-10 and just say that, you know, I hope that 
you will continue to make sure that you maintain that asset and 
that capability well into the future and think about it beyond 
that. For the guy on the ground, the close air support is 
awfully important.
    That A-10 is impressive, you know, when you have some kind 
of forward air controller out there with you, calling close air 
support, and being able to get nice and tight. It makes a big 
difference.
    I know that doesn't figure into your testing, sir, but it 
inspires confidence on the ground and the sound of that 30 mm 
is just calming in its own special kind of way.
    So, with that, let me just ask Mr. Behler, I would like to 
join Mr. Gallego in any kind of briefing that you give when you 
are ready to do that. So, thank you.
    Mr. Behler. Yes, absolutely. And that should not be too 
long from now that we will have the final results.
    Mr. Norcross. Mr. Turner.
    Mr. Turner. Thank you. I just want to begin by saying the 
only rebuttal I have to Mr. Cook is he knows I have a 2 o'clock 
haircut appointment today, so.
    [Laughter.]
    Mr. Turner. He just wants to claim credit for it, but he 
already knows that I am having it cut at 2:00, so whatever.
    [Laughter.]
    Mr. Turner. The--not as a pressing issue as Turkey 
obviously. Part of the problem I think that we have here with 
the F-35 and the 15X discussion is that regardless of the fact 
that the Air Force is saying that the recommendation for the 
15X is not happening at the expense of the F-35, it is.
    The Air Force is coming to us, requesting fewer F-35s in 
the future. And my concern is that we are going to be repeating 
the same mistakes that we have made before.
    Admiral, as you know, our goal is more planes. The more 
planes we buy, the cost goes down. We don't have an ability to 
ramp up without having taken that step each and every year. 
Both in our supply chain, I mean, we are an unreliable 
purchaser.
    So when we look to the supply chain and the need for people 
to invest downstream, and they look forward as to what the 
reliability of our commitment to purchase is, it is a riskier 
invest.
    So, each year, if we ramp up, our costs go down, the supply 
chain gets a chance to respond. If we zig zag, if we go up and 
down, if we have future projections that we don't meet, we are 
affecting, we are causing our own problems in the delivery of 
parts and in the ability of the production line to continue at 
a faster pace.
    Dr. Roper, you said that we are living currently with some 
problems that were created in the past. Aren't we creating 
those problems and continuing them in the future? Don't we need 
to make a greater commitment to the F-35 for it to have the 
sustainability in production, in supply chain, and in lowering 
costs?
    Secretary Roper. Congressman Turner, we are fully committed 
to the F-35 and we are making those investments to get to full-
rate production. It is just a reality that the investments are 
long lead. We have to get the total supply chain under control 
and----
    Mr. Turner. But isn't that true that it is a rolling long 
lead? That if I don't make that decision this year, and then I 
have to make it again next year, and then I have to make it 
again next year, you institutionalize the inability of the 
production line and of the supply chain to meet your needs.
    Secretary Roper. Yes, yes, Congressman, you don't just look 
at your supply chain for the immediate year. When we talk about 
F-35 in the Department, we talk about the path to getting to 
full-rate production and the investments that need to be made 
in the supply chain to get to full rate. So, we are buying----
    Mr. Turner. And so, you are currently planning on reducing 
your planned buys of F-35As by 30 in the future year defense 
plan and if I am in your supply chain and I look at that, and I 
am making a decision for investment, you have just negatively 
impacted my long-term plan which will not allow you in the 
future to ramp up production in the supply chain, right?
    Secretary Roper. So, Congressman, we are working very 
diligently with Lockheed Martin to get to full-rate production 
by Lot 15.
    Mr. Turner. Doesn't that require that you buy them? I mean, 
if you continue to project that you are going to reduce your 
production, you can't get to full-rate production. And no one 
is going to look at you as a reliable partner----
    Secretary Roper. Congressman----
    Mr. Turner [continuing]. By not taking that step of 
commitment.
    Secretary Roper. Yes, Congressman, I will certainly try to 
allay your concerns. That we want to buy the max number of 
planes that the line can produce in a healthy fashion. I am 
sure Admiral Winter would be happy to go through some of the 
issues that we are----
    Mr. Turner. Well we actually had that hearing. We know that 
there's extra capacity in the production line that can be met 
right now.
    Secretary Roper. But----
    Mr. Turner. We know that.
    Secretary Roper. But it has to be supported by the base----
    Mr. Turner. Right.
    Secretary Roper [continuing]. That can sustain that 
production----
    Mr. Turner. Dr. Roper--but we have had that--we have had 
that meeting. We understand that the capacity is there. Now, if 
you don't meet the full capacity this year, you are not going 
to have an ability to increase capacity the following year, 
because this is just stairstep. And if you flatline it, or if 
you have a jagged commitment to purchases, you are going affect 
that yourself.
    General Holmes, it is great to hear you talking about the 
A-10. You know, this is a very frustrating discussion to have 
about the F-15X because, you know, there was no discussions 
whatsoever about the F-15X just months ago.
    But it is a 40-plus-year decision that you are making. Now 
you sit in front of us and say how great the A-10 is but you 
know the only reason you have the A-10 is because we had 
hearings like this where the Air Force stood in front of us and 
said we need to stop the A-10 and we would not let you.
    Similarly, there have been programs where the Air Force has 
said, we are going to go march this way, then we are going to 
go march that way. How is it that a program gets--comes out of 
thin air with just months? No requirements, no competition. A 
40-year-plus decision gets just airdropped in the middle of the 
Air Force long-range plan when there has been no discussion 
about this previously.
    General Holmes. Thank you, Congressman. Every year in my 
term as the Air Force 5/8 [A5/8, Deputy Chief of Staff for 
Strategic Plans and Requirements], the subject of more fourth 
gen came up and the F-15X usually came up as part of that 
discussion. And the reason is, is because it is a line that is 
open. The A-10 line is not open. The F-15 line is open.
    So, every year there are proposals that come in and every 
year it has been considered. In the years prior to this year, 
we had all the money that we could use was given to try to get 
to 48 F-35s because of the limits on the budget.
    And I do, I think there are a lot of people that are glad 
we still have the A-10 but the reason the Air Force had a 
discussion about the A-10 in the first place was because of the 
Budget Control Act and limited budgets. It drove us to try to 
make some choices and to bring choices to the Congress. I am 
glad we still have the A-10.
    This discussion has been made every year in the 3 years I 
was the 5/8 and in the 2 years since then. The question is, why 
this year? And I think the reason why this year is partly what 
we talked about.
    It is that the F-15C, we have more information it is not 
going to make it. F-15Cs are parked now that we can't fly and 
to try to get to 72 within the money that is available in the 
Air Force budget, and the money that the Department of Defense 
gives for the fighter portfolio, this was the way that we could 
get to 72 airplanes. It was not affordable to get to 72 
airplanes in the F-35.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Norcross. Mr. Carbajal.
    Mr. Carbajal. Admiral Winter, the April 2019 GAO report 
indicated that the F-35s were not meeting half of their 
reliability and maintainability metrics, which obviously leads 
to an expensive and less reliable asset that is costing a 
sustainment cost of about $1.1 trillion.
    This is challenging, especially when you consider the 
supply chain problem that seems to exist. I understand that DOD 
[Department of Defense] has taken steps to address this issue 
and close the gap. But moreover, you mentioned that we are 
behind 600 parts per month. This is obviously very alarming.
    How are we addressing this? Can you provide us with an 
update on this issue?
    Admiral Winter. Mr. Congressman, absolutely, and thank you 
for that question. I will make sure that I address the 600 
parts to the production line, which aren't exactly tangential 
to the reliability, maintainability improvement program. That 
was the report subject by my colleague, Mr. Sullivan, which I 
will say that, I appreciate the GAO's continued help and 
engagement to ensure that we are keeping ourselves focused 
across all lines of effort in the F-35.
    From our spare parts and our production parts, our supply 
chain is pressurized in being able to give the capacity of 
output for spare parts and sustainment, and production line new 
parts.
    We have traced a couple of causal factors. One is the 
slowness of our prime contractors to actually put out what is 
called a purchase order. So being able to tell the supply chain 
to start generating those parts.
    We have helped our prime contractors to increase the 
agility of their business systems to be able to do that.
    Second, we have looked into our supply chain to determine 
where the capacity barriers are, and we are providing resources 
for them to increase capacity in the supply chain to generate 
those new parts.
    Third, we are removing their requirement to repair those 
broken parts, and getting that stood up in our U.S. Air Force 
and Navy depots so that we can get more parts to the flight 
line for our maintainers to fix airplanes and more parts to the 
production lines so we can reduce that backlog and keep the 
production line moving forward.
    Mr. Carbajal. So, if--to what extent has the problem now 
been addressed though? Eighty percent, fifty percent, what kind 
of success are we having?
    Admiral Winter. So, sir, because of what I call the delta 
growth, as we are ramping up the production so that the 
capacity needed for more parts, because of the increased 
production line, and the increased fielding of aircraft into 
our warfighter's fleets.
    The demand signal we can measure, but we do not have a 
stable baseline of demand. That demand continues to move 
forward. To give you a percentage of what we have accomplished 
would be hard to calculate.
    What I can tell you is that we have talked to the entire 
supply chain, from Lockheed Martin in the airframe and Pratt & 
Whitney in the propulsion system, and with consistent 
engagement for their requirement to tell us where their 
shortfalls are.
    The majority of our supply chain is within the United 
States. But there are areas of our supply chain that are in the 
international domain that we need to continue to make sure that 
that stays whole.
    So, right now, my main focus to Lockheed and Pratt is to 
make sure that their tiered suppliers, the first and second 
tiered suppliers, are communicating where their shortfalls are. 
That wasn't happening in the past. So I will take for the 
record a percentage of the supply chain that has been engaged.
    But I will tell you that the majority of that supply chain 
has been engaged, and we have been identifying where those 
bottlenecks are in the supply chain, and we are tackling them 
as we get them identified.
    [The information referred to can be found in the Appendix 
on page 161.]
    Mr. Carbajal. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Norcross. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chair. I have a whole series of 
questions so if we have time afterwards, maybe I can get a 
second round in if time allows. Well, first of all, thank you 
for being here.
    I have worked with General Holmes and widely respected and 
trusted and it is good to see you again. Especially with a 
couple more stars on. So, congratulations. And my first 
question is, what I think I heard from you today, was a strong 
affirmation for the F-35, F-15 mix. But do I have that right?
    General Holmes. Yes, sir. The F-35 is the future of the Air 
Force. And to get us through this period, we need to pursue a 
mix of airplanes and this is the most cost-effective way to do 
it.
    Mr. Bacon. You know, it seems to me we are in this 
situation because we canceled the F-22 production around 2010. 
Is that a fair judgment?
    General Holmes. Congressman, I think that is certainly a 
factor. That we canceled the F-22, and then we made decisions 
to wait based on what we hoped could be accelerated in the F-
35, and it turned out it wasn't able to be accelerated.
    Mr. Bacon. Right. What is our air-to-air superiority 
requirement? And how much does the F-22 fulfill of that 
requirement?
    General Holmes. Right now, we have performed air 
superiority requirements to [Off mic], certainly, on the front 
lines in inter [Off mic]. We will continue to bring 
modernization requirements as every day, our adversary gets a 
little bit better, every day, it gets a little harder to 
maintain that purpose. Looking for the shot that remains.
    If you want to [Off mic] better the entire Air Force, then 
[Off mic] air superiority [Off mic] for us to control the air 
so that they can operate on the ground underneath it. So we can 
take modernization [Off mic] critical [Off mic] its path to 
work.
    And at the same time, we are investing our money in new 
technologies that will someday be a successor in the Armed 
Forces' capability that will make sure we can do that into the 
future.
    Mr. Bacon. Thank you. Go ahead.
    Secretary Roper. And, Congressman, as we modernize the F-
22, one of the things that we are really excited about is 
switching to open architecture. So, once we open up the 
systems, that will give us a great tool to keep it current. We 
will work software concurrently and modernization and 
sustainment so that if the warfighters' needs shift between 
modernization to sustaining and back to modernization, we will 
have a production pipeline that can deal with that.
    But open systems have to be our standard going forward. We 
have to design things up front for sustainability.
    Mr. Bacon. Right.
    Secretary Roper. So, that is a lesson learned that we are 
taking to all new programs, but I am excited to get it on F-22.
    Mr. Bacon. Come back to the Echoes. This is like my third 
question, I was going to come back to you on it. But I want to 
ask Admiral Winter.
    On the F-35, you know, we had this giant sensor, all these 
sensors on the F-35. Are we making progress on getting that 
data off the jet, real time, back to your operations center, so 
that the follow-on sorties have that data before the F-35 
lands.
    Admiral Winter. Mr. Congressman, that is a great question. 
Internally, from a tactics perspective, our multi-functional 
advanced data link communication amongst F-35s is the primary 
information exchange. And then our Link 16 conduit to other 
non-F-35, not just airframe, but from surface ships to 
satellites and everything in between.
    From a data engagement on the aircraft itself, to be able 
to come back from a mission planning, and more importantly, 
from a threats-based affects to be able to update our mission 
data files, we are challenged in being able to meet the 
turnaround times that our warfighter needs.
    General Holmes has made it crystal clear that we need to 
get our mission data file reprogramming agility up to speed. We 
need to get our simulators ahead of the aircraft software 
releases, and we need to get our ALIS system up to speed to be 
able to generate at scale the growing fleet.
    We have initiatives, investment initiatives, supported by 
this subcommittee, on all three of those efforts to get after 
that. Thank you, sir.
    Mr. Bacon. Yes. This is a real important issue, Mr. 
Chairman. You have phase 2, phase 3, your best sensors are the 
F-35, maybe the F-22, perhaps the B 21 in the future. But we 
have to get that data off real time, because there is other 
guys getting ready to go into the fight. And they can't wait 2 
or 3 hours for the aircraft to land. So I think it is an 
important problem to work on.
    Dr. Roper, you already talked about this a little bit. You 
know I have been a big advocate for the modular open system 
architecture, or last cycle we were calling it SOSA [sensor 
open systems architecture]. Now we are calling it MOSA [modular 
open systems approach]. Are we making good progress when it 
comes to EW [electronic warfare] and ISR with these open 
architectures?
    Secretary Roper. Congressman, we are. It is much easier to 
do when you are in the design of a program. You make it one of 
the criteria for the competitive award.
    For programs that we already have designed from the past, 
we are really having to work hard to get it into them as part 
of the sustainability imperative. Things like F-22, the F-35 
and Block 4 when they get TR-3 will have open systems on it.
    It is a challenge because if the system wasn't designed for 
it, you have to do a lot more work to put it in after the fact. 
But in terms of lowering cost for sustainability and keeping 
the warfighters' edge through the ability to modernize it, it 
is completely worth it.
    Mr. Bacon. Okay. Thank you.
    Mr. Chairman, I am out of time, but if we have time to come 
back later, I do want to talk about the light attack program. 
Because there is some question about where we are at with that. 
Medium-altitude ISR, want to have some information there. And 
also some EW questions.
    But, if we have time when we are done.
    Mr. Norcross. Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman. And thank you all.
    General Holmes, you just talked about the challenges on air 
superiority to near peers. We just heard yesterday from 
NORTHCOM [U.S. Northern Command] that the F-35's the best 
possible way of combating the challenges that we are facing up 
north in the Arctic Circle, from Russia.
    And I am just curious, the thoughts around moving to the 
15X. How are we looking for that in the long term? How are we 
going to be able to keep the edge? Keep the warfighter's edge? 
And I guess this question goes to anyone who wants to chime in 
on it.
    General Holmes. As I think I understand the question is 
that if we invest in the F-15X instead of the F-35? How about 
now? How about now? There we go, thank you. It is the impact of 
F-15Xs in the homeland defense role vice the F-35.
    We'll--right now our day-to-day alert of the United States 
is covered by a mix of F-16s and F-15s. And as we go forward in 
the future, we will have a mix I think of fourth and fifth gen 
threats. For some of the scenarios, having a big airplane that 
carries a big payload and an electronically scanned radar that 
can find cruise missiles won't be in a threat environment that 
requires that very sophisticated low observability of the F-35.
    For some cases, where you are trying to move forward and 
take on long-range bombers that are escorted by sophisticated 
fighters, and shooting long-range cruise missiles, it will be.
    So, I think you will see a mix of the forces presented to 
the NORTHCOM just like you will see a mix in the forces we 
present to other COCOMs [combatant commands] of fifth gen and 
fourth gen, and they will have a requirement for both.
    Ms. Hill. Okay. So, oh, go ahead.
    Mr. Behler. I would like to add a comment about how we are 
going to test these things. So, we have a Joint Simulation 
Environment that is getting close to being complete and we will 
be putting the F-35 in a test in there to fight against 
simulated accredited threats like the J-20, J-21, surface-to-
air threats, electronic warfare, in an environment that we 
can't do in open air.
    So, going forward, as we develop the Block 4 and other 
capabilities, the B-2 and other fifth-generation assets will 
have to use this simulation environment to really look at the 
capabilities that it has against the fifth generation.
    I will add one more point, is that fifth-generation pilots 
like to fight against fifth-generation threats. And today, we 
do not have any fifth-generation full-size threats that we need 
to think about in the future.
    Ms. Hill. But aren't we going further out, isn't that the 
long-term issue that we are doing to be dealing with, right? 
Today we have got F-15s--I am sorry, F-15Es, F16s, where do we, 
you know, I feel like we are going to be moving into a more and 
more challenging environment.
    We are not getting to a point where we are going to be 
moving into fully functional fifth-generation and all-fifth-
generation fleet. And by the time that we are having this 
conversation again, we are already going to be moving into 
sixth generation.
    So, you know, what does this mean for the long-term 
sustainability, and then going back to what my colleague said 
earlier, the supply chain, I think that is a real challenge 
that we have when we are not making predictable procurement, 
then how are we going to ensure that we do deal with those 
challenges on an ongoing basis. Anyone.
    General Holmes. I guess the--thank you, Congresswoman. The 
one thing I would add is that as we said, we love the F-35, we 
are committed to the F-35. We have not budged from our total 
buy, and the total program, and our goals to acquire the F-35.
    It is a question of when and how and how will we pay for it 
and how will we continue to modernize the airplane to adjust it 
to improving threats. Thank you, though, for your interest in--
--
    Ms. Hill. So, can you talk about the cost per hour on the 
F-15X? I know that you talked about trying to get it down to 
$25,000 for the 35. What do we project as the cost per hour on 
the 15X?
    General Holmes. Mr. Daigle, you want to?
    Mr. Daigle. Yes, I think I will say something. All right. I 
will tackle that one, but first let me go back to the 
operational side of the conversation.
    Even in the high-end warfights, there will be, as General 
Holmes said, instances of which you need penetrating aircraft 
going forward.
    But there will still be missions in the high-end fight 
where you don't need those assets. Where you still need cruise 
missile defensive air bases, for example, like. And in that 
situation, for those missions, having a higher inventory of 
weapons on the plane makes more sense than investing in the 
stealthy aspects of that plane because you don't need them to 
go forward.
    The 15X cost per flying hour estimate, between 2020 and 
2035, which is the way we did it in program budget review this 
year, is $29,000 per flying hour. The F-18s, by way of example, 
the F-18E/Fs right now are about $23,000 per flying hour. F-
15Es I think are sitting right around 34, but they are a little 
bit older than the EXs would be.
    Ms. Hill. Okay. Thank you. And then, General Holmes and 
Lieutenant General Ierardi, I was hoping you could talk a 
little bit about the role that the U-2 still plays in the 
modern world knowing that there is probably some skeptics that 
think that with drones and satellites, why are we still flying 
these 50-year-old planes. But what makes their ISR capability 
unique?
    General Ierardi. Just from the joint perspective, I mean, 
the balance of capabilities are important. So, you know, while 
we develop enhanced capability in all domains--and we are 
certainly pressing to do that--retaining the capability to do 
things, to surveil and recon targets from all realms remains 
important. Especially in the near term as we look out into the 
2020s and the kinds of capabilities we will require.
    Ms. Hill. Thank you. I yield back.
    Mr. Norcross. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our witnesses for joining us today.
    I want to go to our Air Force members here. We have gotten 
a sneak peek of a pretty exciting aircraft, the XQ-58A Valkyrie 
UAV [unmanned aerial vehicle] platform that has a tactical 
capability there. Pretty amazing in what it will do with both 
defensive and offensive counter-air measures. Also being able 
to soak up enemy fire. Also being able to take on enemy air 
defenses.
    Let me ask a question about how that platform, first of 
all, is going to be integrated into the fight. And we look at 
certain concepts, the whole idea, will it fight by itself, will 
it integrate in with existing aircraft, will it kind of be a 
wingman in that battlespace.
    Secondly is, has it been developed so that--and we know 
that systems out there like Link 16 where these systems get to 
not only talk to each other, but talk to other systems out 
there.
    Is this, XQ-58A, is it being developed to work directly 
with the F-35 and if so, how will that affect where you are 
operating now in future contested airspace. And what will this 
do to either change the way we fight or to give us additional 
capabilities in what we do in that high-end fight.
    General Holmes. Thanks, Congressman. And I am sure that Dr. 
Roper may want to add something to this.
    I would start by saying that we are testing some exciting 
things and part of the reason we are testing these exciting 
things is because of Dr. Roper coming over to join us as our 
senior acquisition executive and bringing over some ideas and 
helping our guys come up with new ones.
    I think the test article of the Valkyrie as you spoke is a 
test of a lower cost, more attritable, more affordable resource 
that we are now flying, and we will have the chance to fit into 
some of our concepts and see how it works.
    It is a test article that still would have to have sensors, 
would have to have the command and control system to make it 
work, would have to work through the weapons part, and I think 
the goal of flying it is to get it out there and test it and 
experiment with our fourth- and fifth-gen existing airplanes 
and with the things we might field in the future, and see how 
they work.
    I would also like to give a plug to the Air Force's 
warfighter integration capability, an office that we have stood 
up in our headquarters Air Force A5 that is focused on exactly 
what you spoke of, sir, to come up with concepts for the future 
on how to do these things better.
    Secretary Roper. Congressman Wittman, you and I have spoken 
about this many times. When I was in OSD [Office of the 
Secretary of Defense], I thought there was a powerful role to 
give a high-end fighter a wing man that you could take risk 
with, that you could attrit, that would not necessarily have to 
return and land. And the Valkyries platform that we have 
started, and an OSD program called Avatar that we are now 
promoting into a 6.4 or prototyping program called Skyborg.
    The initiative is to do precisely what General Holmes said. 
And that is to try to determine what sensors, what payloads, 
what networking do we need to put on it to give the fighter 
pilot a huge advantage flying against an enemy that does not 
have the ability to take risk.
    So we will learn this not just by doing technology 
demonstrations, we are going to be working with the operator, 
with the warfighter. And we are excited to see where this 
program goes.
    And in terms of where it goes, when the F-35 gets Tech 
Refresh 3, it gets a system called open mission systems, which 
would allow the F-35, if we so chose, to command and control 
UAVs. So, the pilot would truly be able to quarterback a team 
of systems. It sounds like the future, but it is here. And we 
hope that the Valkyrie will help us get that over the goal 
line.
    Mr. Wittman. Well, the Valkyrie too is very, I think, 
appropriate because we look at costs and how we get more per 
our unit cost, as you and I have talked about, than our 
adversaries get per their unit cost. We have to be able to do 
more. We have the technology to do that.
    The Valkyrie is one of those areas at a very low price. 
About $3 million, roughly, per aircraft. If you make more, the 
price goes down. I think it is particularly significant that 
that is part of our strategy, too. Not only to invoke cost on 
an adversary, but to save cost on our side.
    One other thing, too, is as we talk about the F-15EX, will 
the F-15EX be able to integrate in its air combat systems the 
ability to work jointly then with the Valkyrie in that 
airspace? Because if we are going to be investing in that 
aircraft out in the future, and it can't integrate with another 
future platform there that gives it an enhanced capability, 
then you do have to question the investment that we are making 
now with that F-15EX.
    Secretary Roper. Congressman, that is what we are currently 
working. So, I have given the authority to our program office 
to develop an acquisition strategy. We have talked about the 
importance of open mission systems. We think it is critically 
important, if we pursue the F15-EX, to have it be an open 
system. Not just for the sustainability, but for the option to 
do the things you just mentioned, sir.
    Mr. Wittman. Okay. Very good. Thank you, Mr. Chairman, I 
yield back.
    Mr. Norcross. That was the bell. I think we have about 10 
minutes. So we are going to split the time between Mrs. 
Hartzler and myself. A lot of great discussion. I want to hear 
from the Joint Staff about the decision making on the F-15E. 
What your view was it, why, and following up on Mr. Turner's 
question, did this plane at this time, with capabilities that 
are available, why was this one selected, and the view from 
your end.
    General Ierardi. Thank you, Mr. Chairman. Last year as the 
NDS was--Secretary Mattis directed the NDS, National Defense 
Strategy, but we also had a Joint Military Net Assessment that 
the Chairman of the Joint Chiefs had directed us to look at. 
And this is, in shorthand, competitive areas that we assess 
ourselves against our adversaries to understand the net 
outcome.
    In implementing the National Defense Strategy, the Chairman 
also asked us to look at these competitive areas and what could 
we do in the competitive areas which span the domains, 
including the air domain, to enhance our competitive advantage 
against our adversaries. And we, in the Joint Staff, looked at, 
among other things, the requirement to have a mix of 
capabilities that we thought would enable us to be successful 
as we looked out to a 5-year period.
    This occurred in the summer of last year in time to provide 
some feedback into the program budget review in the fall. Our 
perspective at the time was that first we needed to have the 
fifth-generation capability for the high-end fight that we 
envisioned that was captured in the National Defense Strategy 
guiding the Department.
    Second, we also saw that we had to have additional capacity 
in terms of being able to meet the combatant commanders' 
requirements in multiple locations, but also to reinforce a 
main fight, if that happened, with more aircraft, more bombs, 
the ability to have, while the F-35 program comes onboard over 
the next several years, in greater quantities as we remain 
committed to that program.
    Filling that gap with F-15s, new F-15s, ones that could 
carry greater ordnance, provide the combatant commanders in 
multiple theaters with additional capacity, was something that 
we saw as an important characteristic.
    And so, as this came together in the fall in the program 
budget review, we looked at this from the standpoint of a 
balance of capabilities that was appropriate as we looked to 
the future.
    Mr. Norcross. So, what I heard is capacity was important.
    General Ierardi. Capacity was important.
    Mr. Norcross. So, did you look at doubling down additional 
resources for F-35 issues out there as a possibility?
    General Ierardi. It was a possibility. Cost was a factor. 
Capacity was, in our assessment, a main factor but cost was a 
factor. And given that balance, as we looked at some of the 
numbers that CAPE was running in the Air Force, we thought that 
a mix of aircraft was the best outcome.
    Mr. Norcross. The F-15, let me just switch. Talk about some 
of the systems; it is an active line. So, the F-15C of almost 
30 years ago, and the one today. It was mentioned to us the 
EPAWSS [Eagle Passive/Active Warning and Survivability System] 
system and some of the radar because of the large diameter of 
the fuselage was critical in this decision.
    Can you touch base on that?
    General Nahom. Yes. The, the F-15EX has got some 
significant advantages over the C model just because of the 
development that was done over the years. And as Dr. Roper 
said, the Qataris and Saudi Arabia certainly helped us with the 
investment.
    The APG-82, the AESA [active electronically scanned array] 
radar on the front, the EPAWSS system, as well as the internal 
computer that is going to come off the line and it is going to 
help support some of these systems.
    It is going to have many additional weapon stations over 
what a C model has, which is going to give it some magazine 
depth, which will make it very unique in certain mission sets, 
especially in the counter cruise missile and other missions 
that this aircraft can do. That is going to give you advantages 
over what a C model can do right now.
    Just purely over 30-plus years of technological advancement 
into the F-15C. Much of that enabled by our allies.
    Mr. Norcross. Mrs. Hartzler. Thank you.
    Mrs. Hartzler. Sure. Thank you. I am going to take 2 
minutes and then yield the remaining 3 to Representative Bacon.
    But the F-35 baseline, and this is going to Mr. Sullivan, 
the baseline program was developed concurrently doing 
development, production, and testing all at the same time which 
led to much of the cost and schedule overruns and now the 
program office is taking a new acquisition approach to Block 4, 
referred to as continuous capability development and delivery.
    Given your acquisition expertise, do you think this 
approach can be successful? I can't--Yes.
    Mr. Sullivan. We have concerns because when we look at it, 
the first thing is it is a $10.5 billion estimated investment 
today and that is not for the complete program. That would be 
through 2024. They don't have independent cost estimate yet, 
which would usually be done by CAPE. They have their own cost 
estimate.
    But we like the independent estimates to go with a complete 
business case before you sign a contract that is going make a 
major investment of this kind of money, $10.5 billion. We would 
also like to verify the technologies that are going to go on 
the Block 4. Block 4 is a lot of new software and some hardware 
as well. They are going to do a Technology Refresh 3, putting 
in new processors and things like that.
    There is going to be work done on the weapons bay, there is 
going to be new weapon integration on there. I think Small 
Diameter Bomb II, and a couple of other weapons. So, it is not 
a small thing, obviously, given that money.
    So, we have made a recommendation that it should be its own 
major defense acquisition program because of--it meets the 
statute, you know, $10.5 billion is a lot of money----
    Mrs. Hartzler. Yes.
    Mr. Sullivan [continuing]. For one single investment. So we 
would like to see it have its own baseline. Right now, it is 
just part of the F-35's, you know, the baseline aircraft's 
program. So, the $10.5 billion has been----
    Mrs. Hartzler. Yes.
    Mr. Sullivan [continuing]. Kind of put in with the 
baseline, at this point.
    Mrs. Hartzler. I thought that was a very interesting 
proposal you mentioned that in your opening remarks.
    Thank you. I yield the rest of my time to Representative 
Bacon.
    Mr. Bacon. Thank you. I know we are getting pressed here 
with our votes. I will try to be real quick and just try to 
make our responses to the point.
    But my first is Dr. Roper. On the light attack, the Air 
Force expressed commitment to a light attack platform, and now 
it sounds like it has sort of pulled back from that, despite 
the fact there has been a lot of investments made there.
    We heard from SOCOM [U.S. Special Operations Command] that 
there is a definite requirement for a light attack platform. So 
where are we at with the light attack?
    Secretary Roper. So, Congressman, I will begin but I am 
sure that General Holmes will want to give the requirements 
point of view. From an acquisition point of view, light attack 
was an interesting approach to take. To go out and start 
working with industry, gain experimental data to determine what 
performance could be gained with commercially available 
aircraft.
    I think we have learned a lot working with the two vendors 
and we are proud to continue working with them. I believe we 
will be purchasing a few of each aircraft and going out and 
continuing to do operationally realistic tests and look at some 
additional modernizations.
    But I think we have also learned that there are other 
aircraft that could do the light attack mission. That there is 
a case for turbojets, there is a case for drones. And so rather 
than do what acquisition so often does, is commit early, we 
want to make sure that we have experimented with every option 
so that when we make the choice to proceed, we do so with 
confidence and having as much data on the table as we can have.
    Mr. Bacon. General Holmes, anything to add?
    General Holmes. Just the authorities that Congress gave us 
let us go fast. And let us work through--trying to work through 
these decisions much faster than we would have been able to in 
the past and we are grateful for that.
    As we look at a light attack airplane, the requirements are 
a mix of what would the U.S. Air Force use, and then how would 
we use that role, that airplane, to partner with our allies in 
places that don't need the higher end air assets, and with 
partners that can't afford one.
    So, all the way through the program, we have looked at, 
could we acquire an airplane that's also there is an interest 
in some of our partners that can't afford to operate an F-35 
and maybe not even an F-16 to be able to have an aircraft that 
fits their requirements. And we did our business case analysis. 
Most of the people that would pursue a turboprop airplane 
already have one or are acquiring one.
    And so we wanted to open the aperture and look at some 
other aircraft types, and see if we can find one that is low 
cost to communicate, is low cost to operate, but still meets 
the requirements for our partners so that they can do things on 
their own and we don't have to do it for them.
    Mr. Bacon. I have an RC-135 question then I will have to 
wrap up. We keep hearing--I get mixed signals from the Air 
Force on medium-altitude manned ISR, but yet we know on a phase 
0, phase 1, nothing can replace it right now. I think there is 
an ACC [Air Combat Command] study that says exactly that, in 
fact. I just want to hear your view on the commitment towards 
the RC-135 program. Obviously important for our district.
    General Holmes. And Air Combat Command as well, sir; that 
is, you know, that is half of what we do. We are going to 
continue to pursue a mix of modernized air systems, but we also 
want to look at the other ways to gather that information.
    As the threat gets better and better and better as you 
understand very well, they are capable of pushing our air 
assets off further and further, which makes it hard for them--
--
    Mr. Bacon. [Inaudible.]
    General Holmes. No, yes, sir. In this preparing the 
battlefield stage, there is, right now, there is nothing to 
take the place of the RC-135. Over time as we look at Advanced 
Battle Management System and as we look at the ISR flight plan 
that General Jamieson has put together, we will be gathering 
that information in a mix I think of overhead space systems and 
airborne sensors.
    But for now, there is no substitute for the mix that we 
have which is why we are not advocating this year to remove 
anything from what we have.
    The RC-135, as you know, is continuously updated by Big 
Safari and a fantastic effort to keep it relevant. And we 
believe those airframes are sustainable for at least the near 
term, and we will be weighing, like we have with all of our 
platforms, these big-wing platforms as they reach the end of 
our service life, should we buy another big-wing platform or is 
it time to invest in a way to do that capability in phase 1, 
and phase 2, but also out into phase 3 and phase 4. And those 
are the decisions that we are weighing as we go forward. Thanks 
for the question and for your interest in the subject.
    Mr. Bacon. Thank you, Chairman.
    Mr. Norcross. First of all, I would like to thank the 
witnesses. It was a great discussion. We have some very big 
decisions ahead of us. And certainly my colleagues for hanging 
in there.
    We are adjourned, thank you.
    [Whereupon, at 10:56 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 2, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 2, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 2, 2019

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. GALLEGO

    Secretary Roper. We project the 173 A-10s that recently received 
new wing sets, as well as those that will receive new wing sets via the 
recently awarded re-winging contract, will have a wing-service-life 
that extends to 2030 and beyond depending on mission demands.   [See 
page 18.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CARBAJAL
    Admiral Winter. The F-35 Joint Program Office (JPO) completed its 
supplier capacity analysis via a Special Tooling and Test Equipment 
(STATE) initiative in March 2019. This initiative assessed F-35 
production and sustainment ``new build'' demands for the next seven 
years across the fleet to address parts shortfalls and supply chain 
challenges. During this process, the JPO engaged with all 114 of its 
major suppliers. Of these 114 suppliers, 92 (80.7%) suppliers were 
determined to have no capacity constraints while 22 (19.3%) were deemed 
to have capacity constraints. Additional validation occurred for these 
22 suppliers by conducting joint technical reviews for alignment to 
meet required demand. This initiative aligns with the new Life Cycle 
Sustainment Plan approved in January and moves toward a more agile and 
accelerated supply chain to meet the fleet demand as dictated. 
Delivering STATE to our production line and fleet, following contract 
award, is the metric of success. Contract award is currently scheduled 
for third quarter 2019 with delivery to follow 18 to 24 months after 
(approximately 2021).   [See page 29.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 2, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. NORCROSS

    Mr. Norcross. The subcommittee understands that the analysis of 
alternatives (AOA) for ABMS is not formally considering Ground Moving 
Target Indicator (GMTI) as a requirement. Rather, the service intends 
to count the GMTI requirements analysis done under the prior JSTARS 
recap AOA as part of the ABMS analysis. If the ABMS AOA isn't actually 
examining GMTI, how will you ensure that the requirement is fully 
considered and addressed?
    Secretary Roper. The National Defense Strategy (NDS) directs a 
renewed emphasis on operating in and developing capabilities for 
unfriendly and contested environments. Potential adversaries are 
fielding capabilities with the intention of keeping U.S. platforms away 
from the fight so that they are unable to achieve their operational 
mission. Within this contested environment, they are also fielding 
capabilities over large areas that can hide and move quickly with the 
intention of increasing the difficulty of finding, tracking, and 
negating potential targets. Therefore in accordance with the NDS, ABMS 
is a family of systems that aims to address these challenges and 
achieve multi-domain command and control. GMTI is a critical component 
of these capabilities and is included in our ongoing analysis.
    Mr. Norcross. The subcommittee understands that Combat Rescue 
Helicopter is scheduled for first flight later this month and a 
Milestone C decision at the end of FY19. FY20 budget briefings indicate 
that the Air Force intends to make two low rate initial production 
awards in the next 12 months, one immediately after Milestone C and the 
other in April 2020. That would bring the total LRIP buy to 22 aircraft 
in a six-month period. Please describe how the service and the program 
are going to manage any risk associated with this aggressive LRIP 
procurement and what measures are in place to ensure production 
milestones are met? Is the program capable of executing to this plan?
    Secretary Roper. Yes, the Air Force is confident we can execute our 
plan for the Combat Rescue Helicopter program. The Air Force program 
office works closely with Sikorsky and the Defense Contract Management 
Agency to manage program development and production risk, and will 
continue to do so during production. The planned low rate initial 
production (LRIP) award schedule reduces risk due to supplier base 
performance and is based on their lead time requirements. Each 
production lot will deliver sequentially in accordance with 
appropriation law.
    Mr. Norcross. The subcommittee understands that Combat Rescue 
Helicopter is scheduled for first flight later this month and a 
Milestone C decision at the end of FY19. FY20 budget briefings indicate 
that the Air Force intends to make two low rate initial production 
awards in the next 12 months, one immediately after Milestone C and the 
other in April 2020. That would bring the total LRIP buy to 22 aircraft 
in a six-month period. Please describe how the service and the program 
are going to manage any risk associated with this aggressive LRIP 
procurement and what measures are in place to ensure production 
milestones are met? Is the program capable of executing to this plan?
    General Nahom. Yes, the Air Force is confident we can execute our 
plan for the Combat Rescue Helicopter program. The Air Force program 
office works closely with Sikorsky and the Defense Contract Management 
Agency to manage program development and production risk, and will 
continue to do so during production. The planned low rate initial 
production (LRIP) award schedule reduces risk due to supplier base 
performance and is based on their lead time requirements. Each 
production lot will deliver sequentially in accordance with 
appropriation law.
    The Air Force's planned LRIP schedule minimizes production gaps and 
is based on production lot lead times to ensure timely delivery of 
combat search and rescue capability. The Combat Rescue Helicopter 
contract contains pre-negotiated fixed priced options for the low rate 
production, each with a unique production lead time to allow the prime 
contractor to contract with its supplier base for that lot's material. 
To avoid a gap for supplier and Sikorsky production, LRIP lot 2 (FY20) 
needs to be exercised seven months after LRIP lot 1.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. The EPAWSS electronic warfare suite upgrades were 
originally planned for the F-15C and F-15E. The Air Force now plans to 
purchase F-15EX aircraft to replace the F-15C, and no longer intends to 
upgrade the F-15C with EPAWSS. If the current acquisition strategy to 
purchase F-15EX is not realized, what is the Air Force's plan to ensure 
F-15C aircraft receive needed upgrades such as EPAWSS to ensure the Air 
Force receives capabilities that the F-15EX would otherwise provide?
    Secretary Roper. If the current force structure strategy to procure 
F-15EX is not realized, the Air Force would re-evaluate plans regarding 
the sustainment and modernization of the F-15C/D fleet. If the Air 
Force determines the F-15C/D fleet would have to be retained, then the 
decision to not fund the Service Life Extension Program Longeron and 
Service Life Extension Program Wings upgrades would have to be 
reconsidered. Furthermore, significant and invasive re-wiring upgrades, 
environmental control system modifications, and the addition of dual 
Enhanced Global Positioning System/Inertial Navigation Systems would 
have to be reconsidered. Additionally the Air Force would have to 
decide whether to fund Eagle Passive/Active Warning Survivability 
System, Active Electrically Scanned Array radars, Advanced Display Core 
Processor II, Multifunctional Information Distribution System -Joint 
Tactical Radio System, Mobile User Objective System radios, ALQ-128v2 
electronic warfare countermeasure receiver, and other capability 
upgrades planned to be resident in the F-15EX such as large area 
displays and new high capacity data transfer modules. These plans would 
have to account for significant aircraft downtime due to the extensive 
modification/installations required if the plan is to bring the F-15C/D 
fleet to an F-15EX-like configuration. Finally, the Air Force would 
have to continue the full scale fatigue testing to identify what other 
sustainment upgrades would be required to keep the F-15C/D fleet in 
service and operationally effective. Current estimate to SLEP and 
modernize the F-15C/D fleet to a configuration that is nearly 
comparable to the expected F-15EX aircraft is approximately $11B.
    Mrs. Hartzler. It's my understanding that the F-15X aircraft in 
this year's budget are intended to replace legacy F-15C aircraft that 
are rapidly aging out. The F-15C fleet is flown by Air National Guard 
units around the country. In testimony earlier this year to the Senate 
Appropriations Committee, the Chief of Staff of the Air Force, General 
Goldfein noted that transitioning units across ``like-type'' aircraft--
in other words, from one model of F-15 to another--takes advantage of 
common infrastructure, parts and equipment.
    Would you elaborate on this and how do unit readiness and mission 
conversion costs and schedules factor into this F-15X decision? For 
example:
    What is your estimate of the cost and time required to convert an 
F-15C unit to F-15EX?
    What is your estimate of the cost and time required to convert an 
F-15C unit to an F-35 mission?
    General Holmes. Conversion costs vary between locations. The costs 
are less when converting units across ``like-type'' aircraft vs 
converting different aircraft with different mission sets. For example, 
we estimate that the readiness conversion for the F-15 C/D to F-15X 
would be months, whereas it would be three years for an F-15C/D unit to 
convert a unit to another weapon system like the F-35. As for the cost, 
the F-15X should be able to use approximately 90% of the F-15 C/D 
infrastructure and support equipment, and approximately 70% common F-15 
parts. We would expect minimal use of operations and maintenance (O&M) 
funds in the range of $10M-$20M and this would be refined during the 
site surveys.
    Converting an F-15C/D unit to an F-35 unit will require both 
military construction (MILCON) and O&M funding in the $50M-$70M range. 
A large part of the cost is constructing a 4-bay simulator, 
modifications to squadron operations and aircraft maintenance unit 
buildings, and power conversions in the hangars.
    Mrs. Hartzler. How does the Air Force intend to field the new F-
15EXs? Will they be fielded across both the Active and Guard 
Components? Which do you expect to receive aircraft first?
    General Holmes. The AF intends to field the new F-15EX by 
recapitalization of the F-15 C/D fleet across both Active and Guard 
components. The first eight aircraft will go to test and to the Formal 
Training Unit at Klamath Falls (Air National Guard); timing depends on 
what is authorized in the National Defense Authorization Act. The first 
three operational units will go to both Active Duty and the Air 
National Guard. The exact bases will be determined through SecAF's 
Strategic Basing Process.
    Mrs. Hartzler. What steps should the F-35 program office take to 
ensure that it continues to improve the air system's R&M performance 
and meet the R&M metrics targeted performance levels?
    Mr. Sullivan. In April 2019, we recommended that the Secretary of 
Defense should ensure that the F-35 program office take the following 
steps to improve the air system's R&M performance; 1. assess whether 
the Operational Requirements Document's (ORD) R&M targets are still 
feasible and revise the ORD accordingly, 2. as it revises its R&M 
Improvement Program (RMIP), identify specific and measurable R&M 
objectives in its RMIP guidance, 3. as it revises its RMIP, identify 
and document which RMIP projects will achieve the identified objectives 
of the RMIP guidance, and 4. prioritize funding for the RMIP. DOD 
concurred with the recommendations. The F-35 program office is 
addressing the first recommendation by reviewing requirements with 
applicable stakeholders. Officials stated that they may revise the ORD 
or lower-level documents. The program is also currently in the process 
of revising its RMIP and has considered including more specific 
objectives, including a focus on improving aircraft availability and 
mission capability. To continue to improve the air systems' R&M 
performance, the F-35 program office should implement the other 
recommendations as well.
    Mrs. Hartzler. You have reported that the Block 4 effort should be 
designated as a major defense acquisition (MDAP) program in its own 
right and that it is at risk of experiencing similar cost and schedule 
growth that the F-35 baseline program saw during initial development. 
Should the program be designated as an MDAP and what does the program 
need to do to avoid similar cost and schedule growth on Block 4?
    Mr. Sullivan. Yes, the F-35 program's Block 4 should be designated 
as an MDAP for better transparency and oversight. In April 2016, we 
reported that DOD was not planning to manage its Block 4 effort as a 
separate MDAP, and that this approach does not align with weapon system 
acquisition best practices, which would likely hinder transparency and 
oversight. As a result, we recommended that the Secretary of Defense 
hold a Milestone B review and manage the F-35 Block 4 as a separate and 
distinct MDAP with its own acquisition program baseline and regular 
cost, schedule, and performance reports to Congress. DOD did not concur 
with the recommendation, citing that it views Block 4 as a continuation 
of the existing F-35 acquisition program, its most closely managed 
system. Furthermore, DOD stated that it plans to use existing F-35 
oversight mechanisms, like regularly scheduled high-level acquisition 
reviews, to manage its Block 4 efforts. We continue to stand by our 
recommendation.
    To avoid additional cost and schedule growth, the program should 
complete its Block 4 business case, including an independent technology 
readiness assessment, an independent cost estimate, and an approved 
test and evaluation master plan, before making additional development 
contract awards planned for May 2019. In April 2019, we recommended 
that the Secretary of Defense take these actions, but DOD did not 
concur. In its response to our recommendations, DOD stated that the F-
35 program office has adequate cost, schedule, and technical maturity 
knowledge to begin the development of initial Block 4 capabilities. 
Given our findings on DOD's management of MDAPs over the last 17 years, 
we continue to stand by this recommendation. Specifically, we have 
found that when programs enter development with insufficient knowledge, 
negative effects often cascade throughout the acquisition cycle. The F-
35 Block 4 program has already awarded development contracts without a 
full understanding of cost, schedule, and technical risks associated 
with new development efforts. For example, without an independent 
technology readiness assessment, the program has not identified 
potential critical technology elements and, as a result, may be at risk 
of delaying the delivery of new capabilities.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. WITTMAN
    Mr. Wittman. As Congress evaluates the Department's proposal to buy 
new F-15EXs, there has been a lot of discussion about the costs of 
operating and sustaining the F-15EX vs. the F-35A. Some within the 
Department are claiming F-35 sustainment costs are so high that we 
won't be able to afford an all fifth-gen fleet, and therefore we must 
begin purchasing F-15EXs. However, it is my understanding that F-35 
sustainment costs are coming down, and that all parties involved, 
including DOD, have signed a plan to get the F-35A to a $25,000 Cost 
per Flight Hour by 2025. General Holmes, in your estimation, do you 
think there would be a significant difference in the sustainment costs 
of these two fleets (F-35A and F-15EX) as we approach 2025 and beyond?
    General Holmes. The F-35 Joint Program Office (JPO) and Cost 
Analysis and Program Evaluation (CAPE) have estimated a target F-35 
Cost Per Flying Hour (CPFH) of $35K in FY24. That would be an 
improvement over current F-35A CPFH. CAPE has provided an initial 
estimated F-15E/X CPFH of $29K. Once F-15EX is procured and more data 
becomes available the CPFH can be further examined to bring CPFH below 
the initial CAPE estimate.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. The Chief of Staff of the Air Force, General Goldfein, 
in his testimony before the Senate Armed Services Committee (SASC) last 
month, referred to the crews of the Air Force's Joint Surveillance and 
Target Attack Radar System (JSTARS) Wings as ``our Ph.D.'s of Battle 
Management.'' He went on to say they are ``the doctors of battle 
management that we need to lead us into the future.'' Those ``doctors 
of battle management'' have done an outstanding job of transforming the 
JSTARS weapon from its original ``Fulda Gap scenario'' solution into 
the most capable airborne battle management system in the inventory 
today that can handle any situation ``from Stakeout to Shootout'' as 
the operators like to say. With their demonstrated aptitude to rapidly 
field new capabilities, please tell me how you are going to leverage 
the significant investment in technology and human capital resident at 
the 461st and 116th Air Control Wings and the JSTARS weapon system to 
field and exercise new advanced battle management capabilities in order 
to maintain its warfighting relevance as you move toward your longer 
term objective Advanced Battle Management System (ABMS) solution?
    Secretary Roper. I want to thank both Wings for what they do each 
day to help protect our nation and for their willingness to partner 
together to create and field the future. Early warfighter involvement 
is critical to the success of achieving multi-domain command and 
control and ABMS. We are reaching across the traditional and non-
traditional technical innovation base as well as the operational 
community to ensure the best operationally viable capabilities are 
provided to our airmen as expeditiously as possible. We have developed 
a strong partnership with Team Robins and the two Air Control Wings, 
including establishing an innovation team across both Wings to help 
catalyze new concepts and leverage the team's valuable expertise and 
creativity. Our Chief Architect has met with the team down in Georgia 
and most recently in Nevada as part of the Air Force Weapons School 
Integration Exercise. As potential adversaries pursue capabilities 
intended to deny our freedom of maneuver and proximity as well as 
present dispersed potential targets over large geographic areas, we 
expect our partnership to grow as we work together to make the Air 
Force both ready and lethal.
    Mr. Scott. General Holmes, I understand that the latest Service 
Life Assessment of the E-8C Joint Surveillance and Target Attack Radar 
System (JSTARS) aircraft now project the aircraft going into the latter 
half of the 21st century and that the number of aircraft now in 
Programmed Depot Maintenance (PDM) have returned to the historic 
average of four aircraft. Thank you for your efforts to ensure that 
this critical asset remains available throughout the transition to the 
Advanced Battle Management System (ABMS). Last year the Air Force 
defined three increments of ABMS, with Initial Operational Capability 
(IOC) of Increment 2 to occur in 2028. Now we are hearing about 
retirements of E-8C JSTARS aircraft beginning in 2024, when the FY2018 
National Defense Authorization Act (NDAA) prohibits retirement of 
JSTARS aircraft until IOC of Increment 2 and ABMS is being described as 
a ``strategy.'' Please describe what sort of breakthroughs have 
occurred that would allow for a revised timeline, when the ABMS 
``Architect,'' Mr. Preston Dunlap, was hired only earlier this year in 
2019, the Analysis of Alternatives has not yet been completed, 
submitted to and verified by Cost Assessment and Program Evaluation 
(CAPE) within the Office of the Secretary of Defense, and how the Air 
Force Budget Requests put forth so far would replace the capability and 
capacity of the JSTARS weapon system in just five years from today.
    General Holmes. The Air Force ensured all E-8C aircraft were funded 
through the FYDP and understands the need to sustain the E-8C JSTARS 
aircraft well into the future. The E-8C will be an essential part of 
the Bridge Strategy to Advanced Battle Management System (ABMS), and we 
are planning sustainment and modernization to that effect. The Air 
Force has not committed to any timeline yet for JSTARS retirement, but 
we do not intend for any retirements until we demonstrate the needed 
capability and capacity.
    The National Defense Strategy (NDS) directs a renewed emphasis on 
operating in and developing capabilities for unfriendly and contested 
environments. Potential adversaries are fielding capabilities with the 
intention of keeping U.S. platforms, especially larger and slower 
platforms, away from the fight so that they are unable to achieve their 
operational mission. Within this contested environment, they are also 
dispersing capabilities over large areas where they can hide and move 
quickly with the intention of increasing the difficulty of finding, 
tracking, and negating potential targets. Further, we have the 
opportunity to achieve significant gains by combining the power of 
integration and interoperability with the application of modern 
technology and algorithms. Therefore in accordance with the NDS, ABMS 
is a family of systems that aims to address these challenges and 
realize multi-domain command and control.
    ABMS will be a family of capabilities, not a single platform or 
program. The Chief Architect is conducting a family of systems review 
to develop the ABMS architecture and is tasked with horizontally 
integrating the various domains and families of systems and identifying 
and pursuing areas that need further development or enhancement. We are 
pursuing continuous agile technology development and fielding on 
multiple parallel paths, in order to deliver capability faster. That 
makes an Initial Operational Capacity designation problematic, but I 
think we will all be able to agree in the future when we have provided 
the needed capability and capacity.
    We have already funded some battle management command and control 
capabilities and are developing others that will field within the next 
few years. For example, one of our main efforts will be to modify the 
Control and Reporting Centers (CRC), a ground battle management command 
and control (BMC2) asset to receive ground moving target indicator 
(GMTI) data from airborne assets. We are adding SIPRNet classified 
connectivity, additional work stations (and manpower) for GMTI 
operations, and we are making changes to the software that will allow 
CRC battle managers to generate and use GMTI tracks. We are also 
building communication links between GMTI operators and Sensor 
Operators and a link between the CRC, Army, and Marine MTI users. 
Finally, we are also working a communication link between the CRC and 
all-source intelligence data at appropriate levels of security so that 
battle managers can take advantage of the additional power of all-
source intelligence data in their mission. In support of these efforts, 
we are planning facility upgrades to incorporate even higher 
classification data into the CRC and modifications to deployable CRC 
BMC2 suites.

                                  <all>
</pre></body></html>
